APPENDIX

23092.3

TABLE OF CONTENTS
Appendix A: Court of appeals opinion,
May 23, 2019 ................................................ 1a
Appendix B: District court order and opinion,
June 29, 2018 .............................................. 23a

23092.3

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-60499
JUANITA NICHOLS,
Plaintiff-Appellee,
v.
RELIANCE STANDARD LIFE INSURANCE
COMPANY,
Defendant-Appellant.
Filed: May 23, 2019
Appeal from the United States District Court
for the Southern District of Mississippi
Before KING, SMITH, and WILLETT,
Circuit Judges.
OPINION
JERRY E. SMITH, Circuit Judge:
Reliance Standard Life Insurance Company (“Reliance”) appeals a judgment granting Juanita Nichols past
and future long-term disability (“LTD”) benefits. We reverse and render judgment for Reliance.
(1a)

2a
I.
Nichols worked for Peco Foods, Inc. (“Peco”), at a
chicken processing plant in Sebastopol, Mississippi, as a
Hazard Analysis Critical Control Point (“HACCP”) Coordinator. Her job routinely exposed her to temperatures
around forty degrees. She stopped working on January
28, 2016, stating that she had developed Raynaud’s phenomenon, a circulatory disorder that could cause gangrene if she continued working in the cold.
Nichols sought benefits through Peco’s long-term disability policy (the “policy” or “plan”) issued by Reliance.
That policy is governed by the Employee Retirement Income Security Act of 1974 (“ERISA”), 29 U.S.C. § 1001 et
seq., and pays eligible claimants a percentage of their predisability earnings. A claimant is eligible if he is “Totally
Disabled,” meaning that he “cannot perform the material
duties of [the] Regular Occupation” he was performing
when total disability began.1 The policy defines “Regular
Occupation” as the way the claimant’s job “is normally
performed in the national economy” and not the way it is
“performed for a specific employer or in a specific locale.”2

For Nichols’s class of employees (Class 1), the policy fully defines
“Totally Disabled” and “Total Disability” to “mean, that as a result of
an Injury or Sickness, during the Elimination Period and thereafter
an Insured cannot perform the material duties of his/her Regular Occupation.”

1

2
The full definition provides that “ ‘Regular Occupation’ means the
occupation the Insured is routinely performing when Total Disability
begins. [Reliance] will look at the Insured’s occupation as it is normally performed in the national economy, and not the unique duties
performed for a specific employer or in a specific locale.”

3a
When Nichols applied for LTD benefits, Reliance considered whether exposure to the cold was a material duty
of her regular occupation. Reliance engaged Matthew
Bolks, a vocational rehabilitation specialist, to determine
Nichols’s regular occupation. Bolks reviewed the application—which described Nichols’s job components as
HACCP, Sanitarian Standard Operating Procedures
(“SSOP”), and Good Manufacturing Practices Procedures for the plant—and a submission from Peco that
confirmed Nichols’s job title as HACCP Coordinator and
listed her job duties. That list did not specify that Nichols
was required to work in the cold. Comparing Nichols’s application and the Peco job duties with the Department of
Labor’s Dictionary of Occupational Titles (“DOT”), Bolks
concluded that Nichols’s regular occupation was “Sanitarian.” The material duties of the occupation of sanitarian, as defined by the DOT, include neither employment
at a poultry processing facility nor exposure to the cold.
After Bolks’s assessment, Reliance denied Nichols’s
application for LTD benefits via letter, explaining that
she “retain[ed] the ability to perform the material[ ] duties of [her] occupation.” Reliance acknowledged that
Nichols could not be exposed to cold temperatures and
that her job for Peco required her to work in cold areas.
But it determined that her regular occupation of sanitarian, “as it is typically performed in the national economy,”
did not require working in the cold. “[A]ny requirements
regarding work in a cold environment,” Reliance elaborated, were “job-site specific.” Reliance concluded that
Nichols was not “precluded from performing [her] regular occupation” and thus did not meet the policy’s definition of “Totally Disabled.”

4a
Reliance’s letter told Nichols that she had the right to
appeal, and she timely did, emphasizing that her condition “prohibited [her] from working in cold environments,” as required by her “regular job duties as HACCP
Coordinator.” She did not contend that an alternative
DOT entry would encompass her job duties better than
did the sanitarian entry.
During its appellate review, Reliance engaged Sharon
Xu, M.D., independently to assess Nichols’s physical capabilities. Xu determined that Nichols “ha[d] much less
of a physical capacity limitation and more of an environmental limitation.” “In the proper work environment,”
Xu continued, “[Nichols] should be able to perform all activities . . . [but] this would be in an environment where
there [are] normal room temperatures and not one with
exposures to cold temperatures.” Xu found, however, that
Nichols “suffer[ed] from a significant impairment when
exposed to the cold environment as part of the regular
duties of her job.”
Reliance consulted a second vocational review specialist, Jody Barach, who confirmed that Nichols’s job at
Peco fell within the “regular occupation” of sanitarian as
defined by the DOT. Barach noted the environmental limitations that Xu had identified but concluded that Nichols’s “physical restrictions . . . [we]re consistent with the
physical demands of a Sanitarian. Any exposure to cold
temperatures would be job-site specific.” Thus, Barach
summarized, “there [we]re no restrictions or limitations
that would preclude Ms. Nichols from performing her
Regular Occupation.” Reliance accordingly affirmed the
denial of LTD benefits, explaining to Nichols “that while

5a
[she was] limited in [her] ability to work in colder temperatures, this [wa]s a condition specific to Peco Foods, Inc.,
and not [her] occupation as a Sanitarian.”
II.
Nichols sued Reliance under ERISA, seeking to “recover [LTD] benefits due,” 29 U.S.C. § 1132(a)(1)(B), and
contending that Reliance had abused its discretion in
denying them because she “was clearly unable to perform
the essential duties of her occupation.” Reliance moved
for summary judgment. In less than two pages of substantive response, Nichols urged the district court to
“take judicial notice” that the facilities where chicken is
processed must be kept cold. She also averred that she
was entitled to benefits because “a HACCP Coordinator
in any chicken processing facility around the world is going to have to work in cold environments.”
To decide the motion, the district court focused on “[1]
whether Reliance’s denial was supported by substantial
evidence, and [2] whether Reliance has a conflict of interest.” Nichols v. Reliance Stand. Life Ins. Co., No. 3:17CV-42-CWR-FKB, 2018 WL 3213618, at *3 (S.D. Miss.
June 29, 2018). Regarding the first factor, the court held
that Reliance’s determination “that exposure to cold temperatures was not among the ‘material duties’ of Nichols’
‘regular occupation’ . . . is not based on a fair estimate of
the record evidence.” Id. at *4. The court opined that
“Nichols’ specific job duties, as described by [Peco], fell
into three categories.” Id. “[W]herever Nichols’ job was
performed in the national economy,” the court explained,
“it would require her to perform [1] sanitary-training duties, [2] meat inspection duties, and [3] meat packaging
duties.” Id. (emphasis added).

6a
Reliance thus erred, the district court continued, by
defining Nichols’s regular occupation based only on her
sanitary-training duties. Id. Noting that a different DOT
title—“Cooler Room Worker (Meat Products)”—“best
captures Nichols’ meat inspection and packaging duties,”
the court found that work in the cold was a material duty
of Nichols’s regular occupation. Id. at *4–5 (quotation at
*4). It concluded that Reliance’s denial of benefits “was
unsupported by any evidence, let alone substantial evidence.” Id. at *5 (emphasis added).
The district court next observed that the existence of
a conflict stemming from an insurer’s role as issuer and
administrator is an important factor in reviewing for
abuse of discretion, particularly “when there is evidence
that an insurer has a ‘history of biased claims administration.’ ” Id. at *6 (quoting Metro. Life Ins. Co. v. Glenn,
554 U.S. 105, 117 (2008)). The court thus “conducted a
cumbersome review of judicial opinions addressing Reliance’s behavior in disability cases” and found “over 60
opinions reversing a decision [of Reliance’s] as an abuse
of discretion.” Id.; see also id. at *6 n.79 (collecting citations). Those cases demonstrated that “[c]ourts in every
federal circuit have repeatedly criticized [Reliance’s]
claims management practices.” Id. at *8. The district
court specifically found that “Reliance has been admonished for reflexively using [DOT] while having clearly ignored the actual duties of a claimant’s job.” Id. (cleaned
up).3
The district court summarized that “[t]he fact that
Reliance’s decision to deny Nichols benefits was devoid of
The district court found about forty cases upholding Reliance’s decisions but did not discuss them.

3

7a
evidentiary support is enough to prove that the decision
was an abuse of discretion,” but “Reliance’s long past of
biased and wrongful claims denials in defiance of countless judicial warnings . . . simply underscores this conclusion.” Id. at *9. The court consequently denied the motion
for summary judgment, reversed “[Reliance’s] decision
to deny Nichols benefits,” and ordered Reliance to pay
Nichols both past and future benefits and “a reasonable
attorney’s fee.” Id. at *9−10.
III.
We review a summary judgment de novo, “applying
the same legal standards that controlled the district
court’s decision.” White v. Life Ins. Co. of N. Am., 892
F.3d 762, 767 (5th Cir. 2018). Summary judgment is appropriate “if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” FED. R. CIV. P. 56(a).
“When an ERISA plan lawfully delegates discretionary authority to the plan administrator, a court reviewing
the denial of a claim is limited to assessing whether the
administrator abused that discretion.” Ariana M. v. Humana Health Plan of Tex., Inc., 884 F.3d 246, 247 (5th
Cir. 2018) (en banc) (citing Firestone Tire & Rubber Co.
v. Bruch, 489 U.S. 101, 115 (1989)). The plan gives Reliance such discretion, so we review its denial of Nichols’s
claim for abuse of discretion.4 “An ERISA claimant bears

4
Nichols contends that the denial of benefits should be reviewed de
novo under Ariana M. That is incorrect. We review a denial de novo
only “[f]or plans that do not have valid delegation clauses.” Ariana
M., 884 F.3d at 247.

8a
the burden to show that the administrator abused its discretion.” George v. Reliance Stand. Life Ins. Co., 776 F.3d
349, 352 (5th Cir. 2015).
“A plan administrator abuses its discretion where the
decision is not based on evidence, even if disputable, that
clearly supports the basis for its denial.” Holland v. Int’l
Paper Co. Ret. Plan, 576 F.3d 240, 246 (5th Cir. 2009)
(cleaned up). “If the plan fiduciary’s decision is supported
by substantial evidence and is not arbitrary and capricious, it must prevail.” Killen v. Reliance Stand. Life Ins.
Co., 776 F.3d 303, 307 (5th Cir. 2015) (citation omitted).
“Substantial evidence is more than a scintilla, less than a
preponderance, and is such relevant evidence as a reasonable mind might accept as adequate to support a conclusion.” Ellis v. Liberty Life Assur. Co. of Bos., 394 F.3d
262, 273 (5th Cir. 2004) (cleaned up). “A decision is arbitrary only if made without a rational connection between
the known facts and the decision or between the found
facts and the evidence.” Foster v. Principal Life Ins. Co.,
920 F.3d 298, 304 (5th Cir. 2019) (citation omitted). In
other words, we must uphold the determination if our review “assure[s] that the administrator’s decision fall[s]
somewhere on a continuum of reasonableness—even if on
the low end.” Holland, 576 F.3d at 247 (citation omitted).
We weigh “several different considerations . . . before
determining whether a plan administrator abused its discretion.” White, 892 F.3d at 767 (cleaned up). Which considerations apply is “case-specific.” Id. (citation omitted).
The parties dispute whether Reliance’s decision was supported by substantial evidence and whether the denial
was affected by a conflict of interest.

9a
IV.
Reliance contends that its decision that working in
cold areas was not a material duty of Nichols’s regular
occupation is supported by substantial evidence. The district court disagreed, finding that Reliance’s decision
“was unsupported by any evidence, let alone substantial
evidence,” because Reliance did not account for Nichols’s
job duties outside the DOT description of what a sanitarian does. Nichols, 2018 WL 3213618, at *5. But our precedent does not require that an administrator consider
each of a claimant’s job duties to determine his regular
occupation. And in any event, Reliance’s classification
was easily based on substantial evidence.
A.
In House v. American United Life Insurance Co., 499
F.3d 443, 453 (5th Cir. 2007), we defined “regular occupation” in an LTD plan as “a general occupation rather than
a particular position with a particular employer.”5 We explained that a claimant’s regular occupation must be defined at a high level of generality, “referencing the activities that constitute the material duties of [the claimant’s
occupation] as they are found in the general economy.”
Id. at 454. We elaborated that it was “too fine” a distinction to categorize the claimant’s regular occupation as
“trial lawyer” instead of “lawyer.” Id. at 453. To the contrary, the claimant’s “ ‘regular occupation’ was as an attorney, not restricted to his own specific job as a litigation attorney with a uniquely stressful practice, but rather referencing the activities that constitute the material
Reliance contends that our definition is “close if not identical” to the
definition in the LTD policy at issue here.

5

10a
duties of an attorney as they are found in the general
economy.” Id. at 454 (emphasis added). House thus suggests that features of a claimant’s job within a general
type of work (for example, the unique features of working
as a trial attorney) are irrelevant to defining the material
duties of a claimant’s regular occupation (attorney).
House did not address whether and how a plan administrator may use the DOT to determine the material duties of a claimant’s regular occupation. But we had already done so in Robinson v. Aetna Life Insurance Co.,
443 F.3d 389 (5th Cir. 2006), and Pylant v. Hartford Life
& Accident Insurance Co., 497 F.3d 536 (5th Cir. 2007).
In Robinson, we indicated that DOT entries may serve as
evidence of material duties of a claimant’s regular occupation if they are in the administrative record.6 And in
Pylant, 497 F.3d at 540, we held that a plan administrator
need not account for each of a claimant’s job duties when
using the DOT to identify the duties of a claimant’s regular occupation as found in the general economy.
Pylant is especially pertinent. There, the claimant objected to the administrator’s use of the DOT to define the
clause “your occupation” in the relevant LTD plan. Id. at
539–40. She maintained that by using the DOT, the administrator had found “the essential duties of her occupation [to be] lesser than those she actually performed” and
had thus abused its discretion in denying benefits. Id. at
540. We disagreed, explaining that administrators may
use the DOT to determine material duties of a claimant’s
6
See Robinson, 443 F.3d at 395–96 (noting that though the insurer
relied on DOT information to establish the “material duties of an occupation,” DOT evidence was not in the record (internal quotation
marks omitted)).

11a
occupation “because insurers issuing disability policies
cannot be expected to anticipate every assignment an employer might place upon an employee outside the usual
requirements of his or her occupation.” Id. (cleaned up).
We thus held that the administrator’s interpretation of
the material duties of a claimant’s occupation based on
the DOT was “fair and reasonable,” even though the essential duties identified did not match each duty actually
performed. Id.
B.
Reliance’s finding that work in cold areas was not a
material duty of Nichols’s regular occupation, and Reliance’s consequent decision to deny Nichols LTD benefits,
are supported by substantial evidence. Reliance submitted reports from two vocational review specialists who
used DOT to determine that Nichols’s regular occupation
was that of sanitarian. Taking the facts in the light most
favorable to Nichols, Reliance’s conclusion that Nichols’s
regular occupation is sanitarian was “fair and reasonable”: The duties of HACCP Coordinator at Peco substantially match the material duties of a sanitarian. See Pylant, 497 F.3d at 540.7
For instance, Nichols’s job of HACCP Coordinator required her to
(1) “[h]elp train quality assurance employees . . . in all aspects of
HACCP, SSOP’s, and all regulatory paperwork”; (2) “[m]aintain[ ]
daily paperwork in an organized manner” and “[r]eview[ ] the necessary reports and forms to comply with all government regulations and
company policies”; (3) “[p]hysically inspect products for both natural
occurring [sic] and processing defects”; and (4) “[m]ake[ ] changes to
HACCP and SSOP program at the direction of the Quality Assurance
Manager or the Corporate Director Quality Assurance.” Material duties in the DOT sanitarian definition closely track those job duties: (1)
“[d]irect[ ] food handlers and production personnel in sanitary and
pest control procedures”; (2) “[c]ompile[ ] required reports regarding

7

12a
Throughout her administrative appeal and this
ERISA action, Nichols has stressed that the sanitarian
entry does not capture her “job duties as HACCP Coordinator,” which, she posits, require “working in cold environments.” She faults Reliance for basing its classification on vocational reviews instead of “talking to [her] to
determine her normal job duties.” She emphasizes that
her job required her to inspect chicken for “[p]rocessing
defects,” which meant she had to work in cold conditions
because Peco “is required by [federal regulatory] law to
keep [processed] poultry at cold temperatures.” Nichols
also affirms the district court’s declaration that “[c]ommon sense says that an occupation involving inspection
and packaging of meat products would require exposure
to refrigeration and low temperatures.” Nichols, 2018
WL 3213618, at *4. Working in the cold, Nichols concludes, “is a material duty . . . for any HACCP coordinator
in any chicken processing facility in the nation.”
Those objections miss the mark. Accepting Nichols’s
factual contentions as true, any requirement to work in
the cold is specific to a subset of sanitarians who work in
poultry processing plants. In other words, the requirement that Nichols worked in the cold was specific to her
“particular position with a particular employer.” House,
regular inspections, sanitation violations, and steps taken to resolve
deficiencies”; (3) “[e]xamine[ ] incoming shipments of food ingredients for foreign matter, such as insects, poison, or dirt” and
“[i]nspect[ ] products and equipment for conformity to federal and
state sanitation laws and plant standards”; and (4) “[c]onfer[ ] with
management and production personnel on sanitation problems, and
recommend[ ] changes in equipment, plant layout, lighting, ventilation, or work practices to improve sanitation standards and purity of
product.” The similarities continue across Nichols’s other job duties
at Peco.

13a
499 F.3d at 453. It is not part of her “regular occupation”
as defined by the plan and our precedent. Under House,
we may not determine the material duties of Nichols’s
regular occupation by differentiating between sanitarians generally—who might work at a variety of food processing plants—and a sanitarian who works at a poultry
processing plant.
Nichols similarly contends that Burtch v. Hartford
Life & Accident Insurance Co., 314 F. App’x 750 (5th Cir.
2009) (per curiam), and Robinson—which Burtch cites at
length—require “an insurer [to] look to all the duties an
employee performs as described by the employer” to decide a claimant’s regular occupation. Nichols insists that
Reliance should have considered the environmental factors of her HACCP Coordinator job because the sanitarian designation fails to account for them. The district
court also relied on Burtch, asserting that “the Fifth Circuit says insurers must review the ‘specific duties of the
employee’s job, as described by the employer’ ” to determine a claimant’s regular occupation. Nichols, 2018 WL
3213618, at *4 (quoting Burtch, 314 F. App’x at 755).
Although Burtch and Robinson recognize that a
claimant’s particular duties may “well illustrate” the
claimant’s material job duties, those decisions emphasize
that a claimant’s “precise duties do not define her regular
occupation.” Robinson, 443 F.3d at 396 (emphasis and citation omitted). And neither of those cases requires an
administrator to account for each of a claimant’s specific
job duties. In fact, House stands for the contrary, indicating that courts should not distinguish between different

14a
types of similar work based on factors “unique[ ]” to the
claimant’s job. See House, 499 F.3d at 454.8
Nichols also insists that Reliance erred in using only
one DOT entry to define the material duties of her regular occupation instead of a different entry or even multiple entries. She challenges the designation of sanitarian,
contending that none of its material duties accounts for
the HACCP Coordinator task of “packaging and exporting meat products.”9 She also adopts the district court’s
view that her “job duties can be placed into three categories,” and the sanitarian label covers only one. Nichols ultimately propounds the district court’s conclusion that
the DOT “definition of Cooler Room Worker (Meat Products) would more closely fit her job duties” and that Reliance abused its discretion by classifying her regular occupation differently.
But the “Cooler Room Worker (Meat Products)” entry is not in the administrative record. The district court
Burtch and Robinson, moreover, focused on the claimant’s particular job duties because that was the only evidence of the material duties of the claimant’s occupation in those respective administrative
records. See Burtch, 314 F. App’x at 755 (observing that the insurer
relied solely on the list of the claimant’s job duties to establish the
essential duties of his occupation); Robinson, 443 F.3d at 396 (noting
that the administrative record reflected that the claimant had to drive
hundreds of miles each week for his job, and there was no evidence
suggesting that driving was not a material duty of his occupation).
Here, the DOT entry for sanitarian is in the record, it closely tracks
the Peco job description, and neither it nor the job description suggests that Nichols’s occupation requires her to work in the cold.

8

Exactly what Nichols’s “meat packaging duties” required is unclear,
because the job description for HACCP Coordinator explains only
that the employee must “[f]ollow the written specification for packaging and labeling of products.”

9

15a
raised it sua sponte, and Nichols presses it for the first
time on appeal. In Robinson, 443 F.3d at 396, we rejected
a party’s attempt to rely “on DOT information outside the
administrative record,” and we likewise disregard the
“Cooler Room Worker (Meat Products)” entry here.10
Reliance did not need to account for every task Nichols performed as HACCP Coordinator when assessing
her regular occupation as defined by the plan. Reliance
merely needed to make a “fair and reasonable” determination of whether Nichols’s disability precluded her from
performing the material duties of her regular occupation.11 Though the occupation of sanitarian does not account for whatever meat packaging duties the job of

10
Nichols rejoins that because the sanitarian DOT entry was in the
administrative record, she was free to raise any other DOT entry.
That is not supported by Robinson, which holds that a “DOT entry is
evidence that addresses a ‘factual question’ ” and suggests that determining the material duties of an occupation using DOT is “a finding
of fact.” 443 F.3d at 394. Nichols’s theory that the entire dictionary
becomes factual evidence, even when the plan administrator makes
its determinations according to one entry, does not square with Robinson’s focus on the specific DOT evidence available before the administrator when it made factual findings. Similarly, “[a] long line of
Fifth Circuit cases stands for the proposition that, when assessing
factual questions, the district court is constrained to the evidence before the plan administrator.” Vega v. Nat’l Life Ins. Servs., Inc., 188
F.3d 287, 299 (5th Cir. 1999) (en banc), overruled on other grounds by
Glenn, 554 U.S. 105. The district court was thus constrained to the
DOT entry in the administrative record.

See Pylant, 497 F.3d at 540; see also House, 499 F.3d at 454 (emphasizing that the definition of a claimant’s “regular occupation”
should not be “restricted to his own specific job” and its “unique[ ]”
features). The district court failed to identify binding precedent supporting its assertion that it was “unreasonable” for Reliance’s vocational experts “to define occupational duties by relying exclusively on
11

16a
HACCP Coordinator involved, Reliance’s determination
was at least “based on evidence, even if disputable, that
clearly supports the basis for its denial.” Holland, 576
F.3d at 246 (citation omitted).12
a single Dictionary Title.” Nichols, 2018 WL 3213618, at *5 (cleaned
up).
The district court cited instead, inter alia, Lasser v. Reliance
Standard Life Insurance Co., 344 F.3d 381, 387 n.5 (3d Cir. 2003), and
Kinstler v. First Reliance Life Insurance Co., 181 F.3d 243, 253 (2d
Cir. 1999). But our definition of “regular occupation” established in
House is different from the definition endorsed by the Second and
Third Circuits. Compare Lasser, 344 F.3d at 386 (“ ‘[R]egular occupation’ is the usual work that the insured is actually performing immediately before the onset of disability.”), and Kinstler, 181 F.3d at
252 (defining regular occupation as “a position of the same general
character as the insured’s previous job, requiring similar skills and
training, and involving comparable duties” (citation omitted)), with
House, 499 F.3d at 453 (defining regular occupation as “a general occupation rather than a particular position with a particular employer”). See also Darvell v. Life Ins. Co. of N. Am., 597 F.3d 929, 93536 (8th Cir. 2010) (observing that “[t]he circuits are split” on whether
to define regular occupation based on the “claimant’s actual job duties” or “the insured’s occupation as it is performed in a typical work
setting in the general economy”). No matter what other circuits require, our precedent dictates that regular occupation is to be defined
generally and need not account for each of a claimant’s unique job
duties.
The district court opined that Reliance’s vocational review specialists “cite[d] no support for the claim that Nichols’s occupational duties were identical to those of ‘Sanitarian (Any Industry).’ ” Nichols,
2018 WL 3213618, at *5 (emphasis added) (citation omitted). But
Bolks referred to the list of Nichols’s job duties at Peco and compared
them to the DOT sanitarian entry, concluding that the sanitarian occupation “represent[ed] the best available DOT based occupational
designation,” and Barach apparently reviewed Bolks’s report. Cursory as those analyses may be, courts must uphold decisions “based
on evidence, even if disputable, that clearly supports the basis for its
12

17a
V.
Reliance also contends that the conflict of interest inherent to its role as plan insurer and administrator did
not affect its decision to deny benefits. And in any event,
Reliance avers that because Nichols offered no evidence
that the conflict influenced its determination, the conflict
should not be a significant factor in our review. We agree.
There is no evidence that Reliance’s conflict rendered its
finding arbitrary or capricious, and the existence of the
conflict does not overcome the substantial evidence supporting Reliance’s decision.
A.
We presume a structural conflict of interest where
“the insurer of the plan also determines whether the
claimant is entitled to benefits,” White, 892 F.3d at 767
(citing Glenn, 554 U.S. at 108), because the insurer “potentially benefits from every denied claim,” Schexnayder
v. Hartford Life & Accident Ins. Co., 600 F.3d 465, 470
(5th Cir. 2010) (citation omitted). A conflict is one “of several different considerations,” Glenn, 554 U.S. at 117,
that “must be weighed as a factor in determining whether
there is an abuse of discretion,” id. at 111 (cleaned up).
We weigh the conflict “depending upon the circumstances of a particular case.” Schexnayder, 600 F.3d at
470. A structural conflict may “prove more important
(perhaps of great importance) where circumstances suggest a higher likelihood that it affected the benefits decision,” such as “where an . . . administrator has a history
of biased claims administration,” Glenn, 554 U.S. at 117,
denial.” Holland, 576 F.3d at 246 (citation omitted). And there is such
evidence here, as we have shown.

18a
or where “circumstances surrounding the plan administrator’s decision suggest procedural unreasonableness,”
Truitt v. Unum Life Ins. Co. of Am., 729 F.3d 497, 509
(5th Cir. 2013) (internal quotation marks and citation
omitted).
But a structural conflict may also “prove less important (perhaps to the vanishing point)” in some cases.
Glenn, 554 U.S. at 117. For example, where there is substantial evidence supporting the denial of benefits, the
impact of a structural conflict may be “clearly outweighed” and should not be emphasized. Truitt, 729 F.3d
at 515 (citation omitted). Additionally, “any conflict of interest is not a significant factor” if a claimant fails to
“come forward with any evidence that [the administrator’s] conflict of interest influenced its benefits decision.”
Anderson v. Cytec Indus., Inc., 619 F.3d 505, 512 (5th Cir.
2010) (per curiam).13 That is because it is the plaintiff’s
burden to show that the administrator abused its discretion, see George, 776 F.3d at 352, and “not the defendant’s
burden to prove its decision was not tainted by self-interest,” Doyle v. Liberty Life Assurance Co. of Bos., 542
F.3d 1352, 1360 (11th Cir. 2008).
Thus, we typically consider an administrator’s history
of biased claims administration only if the claimant offers
evidence of such a history. In Holland, for instance, after
noting that the administrator had taken multiple “steps
to minimize any conflict,” we stressed that the claimant
See also McDonald v. Hartford Life Grp. Ins. Co., 361 F. App’x 599,
608 (5th Cir. 2010) (per curiam) (“If claimants do not present evidence
of the degree of the conflict, the court will generally find that any conflict is not a significant factor.” (internal quotation marks and citation
omitted)).

13

19a
“adduced no evidence . . . that [the administrator’s] conflict affected its benefits decision or that it ha[d] a history
of abuses of discretion.” Holland, 576 F.3d at 249. We did
not fish for evidence of past abuses but relied on the
claimant to produce it. And, since Holland, we have consistently looked to the evidence brought by the claimant,
and not our own findings or those of the district court, to
assess the import of the administrator’s conflict.14
B.
Nichols has never suggested that Reliance’s structural conflict impacted its decision to deny her LTD benefits.15 The district court raised the conflict for the first
time, conducting extensive research and presenting “an
unmitigated pattern of arbitrary and wrongful behavior
by Reliance” without seeking input from the parties or
See, e.g., Hagen v. Aetna Ins. Co., 808 F.3d 1022, 1029 (5th Cir. 2015)
(refusing to give “great[ ] weight” to a conflict because the claimant
presented “insufficient” evidence to establish a history of biased
claims administration); McDonald, 361 F. App’x at 608–09 (finding
that a structural conflict was not a significant factor because the
claimant had “not pointed to any specific evidence of a history of
abuses of discretion or of how [the administrator’s] structural conflict
of interest may have affected its benefits decision in this particular
case,” nor had the claimant “attempted to conduct discovery on any
potential conflicts of interest”). Similarly, in Truitt, we considered evidence of the administrator’s history of biased claims administration
because claimants had offered that evidence. See Truitt, 729 F.3d at
514; Brief of Appellant at 28, Truitt, 729 F.3d 497 (No. 12-50142) (explaining that claimants cited decisions in which other courts had criticized the administrator for its handling of claims).
14

15
Even on appeal, Nichols discussed the conflict in only one paragraph of her brief, making no attempt to show that it affected Reliance’s decision but observing that the district court found it “very important.”

20a
giving Reliance a chance to respond. Nichols, 2018 WL
3213618, at *9. The court insisted that the lack of substantial evidence supporting Reliance’s decision was enough
to establish an abuse of discretion. See id. But its protracted analysis of the conflict suggests otherwise.
The court allegedly uncovered “a decades-long pattern of arbitrary claim denials and other misdeeds, a pattern [that it] must take into account when assessing Reliance’s actions in this case.” Id. at *1 (emphasis added).
It “found over 100 opinions in the last 21 years criticizing
Reliance’s disability decisions” but examined only the “60
opinions reversing a decision as an abuse of discretion or
as arbitrary and capricious.” Id. at *6. To justify its exposé, the court invoked Glenn’s language “that a conflict
of interest ‘should prove more important’ when ‘circumstances suggest a higher likelihood that it affected the
benefits decision.’ ” Id. (quoting Glenn, 554 U.S. at 117).
The district court erred in emphasizing Reliance’s
structural conflict. The court’s extensive sua sponte review eschewed our repeated holdings that a structural
conflict is not a significant factor where the claimant offers no evidence that the conflict impacted the administrator’s decision. See Anderson, 619 F.3d at 512; Holland,
576 F.3d at 249.16 Moreover, to portray “an unmitigated
pattern of arbitrary and wrongful behavior by Reliance,”

16
See also Schexnayder, 600 F.3d at 470 (noting that although a structural conflict is one factor that courts “must consider,” “[t]he weight
that [a] conflict will have . . . changes, however, depending upon the
circumstances of a particular case”).

21a
the court ignored the forty cases upholding Reliance’s decisions. And it presented that alleged pattern without input from either party.17
Our precedent dictates that because Nichols “adduced no evidence . . . that [Reliance’s] conflict affected
its benefits decision or that it has a history of abuses of
discretion,” Reliance’s structural conflict should not be
given significant weight. Holland, 576 F.3d at 249.18 Accordingly, “considering the potential conflict of interest
as a minimal factor,” id. at 251, it is “clearly outweighed
by the substantial evidence supporting [Reliance’s] decision,” Truitt, 729 F.3d at 515 (citation omitted).

Based on Chief Justice Robert’s concurring opinion in Glenn, the
district court insisted that it should consider an administrator’s history of biased claims decisions by looking to “a pattern or practice of
unreasonably denying meritorious claims.” Nichols, 2018 WL
3213618, at *6 (citing Glenn, 554 U.S. at 123 (Roberts, C.J., concurring in part and concurring in the judgment)). But the Chief Justice
stated merely that the kind of “evidence demonstrat[ing] that the conflict actually motivated or influenced the claims decision . . . may take
many forms,” and he pointed to “a pattern or practice of unreasonably
denying meritorious claims” as the sort of evidence that would be relevant. Id. The Chief Justice did not suggest that a reviewing court
must conduct its own “cumbersome” review if the parties have not
offered such evidence.
17

18
That is the correct approach even though Reliance does not contend
that it has taken steps to reduce the chance that its conflict affects
benefits decisions. See Hagen, 808 F.3d at 1030 (holding that though
there are steps “that an insurer can take to reduce its potential bias,
there is no requirement that an insurer do so” and that “[a]bsent
other evidence suggesting procedural unreasonableness or warranting treatment of the conflict as a more significant factor, the mere fact
that [the insurer] did not utilize any such precautions is not sufficient
to justify giving [its] conflict greater weight”).

22a
The judgment awarding Nichols past and future LTD
benefits is REVERSED, and a judgment of dismissal
with prejudice is RENDERED for Reliance.

23a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
MISSISSIPPI
No. 3:17-CV-42-CWR-FKB
JUANITA NICHOLS,
Plaintiff,
v.
RELIANCE STANDARD LIFE INSURANCE CO.,
Defendant.
Filed: June 29, 2018
ORDER GRANTING DISABILITY BENEFITS
Before CARLTON W. REEVES, District Judge.*
Few Americans can retire on their savings alone.1 Instead, many participate in an employee benefits plan,
which can provide financial security in case of disability
or retirement.2 The insurers that manage these plans often have conflicting missions of deciding who qualifies for
*

Where possible, this opinion includes hyperlinks for cited sources.

See Employee Benefit Research Institute, 2018 Retirement Confidence Survey (2018).

1

2
See Jack VanDerhei, The Importance of Defined Benefit Plans for
Retirement Income Adequacy, Employee Benefit Research Institute
Notes (2011).

24a
benefits and ensuring those decisions do not undermine
their own bottom line.3
“When guarding the henhouse,” as one expert on employee benefits plans said, “some foxes are bound to go
rogue.”4 Last decade, for example, courts discovered that
one insurer “engaged in a deliberate program of bad faith
denial of meritorious benefit claims.”5 Despite the discovery of such wrongdoing, scholars say government officials
continue to “abdicat[e] their duty to supervise” insurers.6
See John H. Langbein, Trust Law As Regulatory Law: The
Unum/Provident Scandal and Judicial Review of Benefit Denials
Under ERISA, 101 NW. U. L. REV. 1315 (2007).

3

Dana M. Muir, Decentralized Enforcement to Combat Financial
Wrong-doing in Pensions: What Types of Watchdogs Are Necessary
to Keep the Foxes Out of the Henhouse?, 53 AM. BUS. L.J. 33, 96
(2016).

4

5

Langbein, supra n. 3 at 1318.

6
See Lauren R. Roth, A Failure to Supervise: How the Bureaucracy
and the Courts Abandoned Their Intended Roles Under ERISA, 34
PACE L. REV. 216, 219 (2014); see also Jay M. Feinman, The Regulation of Insurance Claim Practices, 5 UC IRVINE L. REV. 1319 (2015);
Javier J. Diaz, Illusory Rights Under the Arbitrary and Capricious
Standard: Adding Remedial Safeguards to the Judicial Standard of
Review Beyond ERISA Denial of Benefits Claims, 11 SETON HALL
CIRCUIT REV. 392 (2015); Andrew Stumpff, Darkness at Noon: Judicial Interpretation May Have Made Things Worse for Benefit Plan
Participants Under ERISA Than Had the Statute Never Been Enacted, 23 ST. THOMAS L. REV. 221 (2011); David H. Webber, The Use
and Abuse of Labor’s Capital, 89 N.Y.U.L. REV. 2106, 2189 (2014); see
also Leslie Scism, Fewer Stay Out in Private Disability Plans, WALL
ST. J., Apr. 7, 2013 (describing tactics used by insurers to deny
claims); Government Accountability Office, Private Pensions: Conflicts of Interest Can Affect Defined Benefit and Defined Contribution Plans, GAO-09-503T (2009); Mary Walsh Williams, Insurers
Faulted as Overloading Social Security, N.Y. TIMES, Apr. 1, 2008.

25a
This case is about Reliance Standard Insurance Company, one of the country’s largest disability insurers.7 The
question the Court must address is whether Reliance’s
denial of disability benefits to Juanita Nichols was an
abuse of discretion. The answer to that question reveals a
decades-long pattern of arbitrary claim denials and other
misdeeds, a pattern the Court must take into account
when assessing Reliance’s actions in this case.
I
Undisputed Facts
Juanita Nichols is 62 years old.8 She says she has
spent her life doing “one thing and one thing only,”9
namely, working as a Hazard Analysis and Critical Control Points Coordinator at Peco Foods’ chicken processing factory in Sebastopol, Mississippi.10 Nichols’ duties as Coordinator required her to “spend a minimum of
twenty percent [of] her work day in processing areas.”11
Temperatures at the factory were kept at 8 degrees
above freezing.12

See Elizabeth Galentine, Top Grossing Large-Group LTD Carriers,
EMPLOYEE BENEFIT ADVISER (Jan. 27, 2016).

7

8

Claim Report, Docket No. 13-1 at 74.

Letter from Juanita Nichols, Docket No. 13-1 at 229-30; see also
Claim Report, Docket No. 13-1 at 74.
9

10
Peco Foods Job Description: HACCP Coordinator, Docket No. 131 at 114.

Letter from Peco Foods Quality Assurance Manager, Docket No.
13-1 at 231-32.
11

Independent Review of Dr. Sharon X. Xu, Docket No. 13-1 at 26168; see also December 2016 Denial Letter, Docket No. 13-1 at 93-94.

12

26a
In 2016, Nichols was diagnosed with a host of circulatory system disorders including Raynaud’s disease,13 a
condition that causes arteries to become “unduly reactive
and enter spasm” when cold.14 Doctors concluded that exposure to the cold could give Nichols serious circulatory
problems, including gangrene.15 Nichols was prescribed a
treatment regimen that included “avoiding . . . working in
an environment where there is exposure to the cold.”16 As
a result, Nichols had to stop working at Peco.17
Nichols applied for long-term disability benefits
through the insurance plan Peco had with Reliance.18 Under that plan, Nichols qualified for benefits if “as a result
of an Injury or Sickness [she] cannot perform the material duties of [her] Regular Occupation.”19 The plan defines “regular occupation” as “the occupation [a claimant]
is routinely performing” at the time of disability onset.20
To determine what that occupation is, Reliance says it

Independent Review of Dr. Sharon X. Xu, Docket No. 13-1 at 26168.

13

14

OXFORD CONCISE MEDICAL DICTIONARY at 645 (9th ed. 2015).

Independent Review of Dr. Sharon X. Xu, Docket No. 13-1 at 26168.

15

16

Id.

17

Id.; see also Claim Report, Docket No. 13-1 at 33-74.

18

Claim Report, Docket No. 13-1 at 33-74.

19

Reliance Policy Number LTD 114776, Docket No. 13-1 at 1-31.

20

Id.

27a
“look[s] at [a claimant’s] occupation as it is normally performed in the national economy, and not the unique duties
performed for a specific employer or specific locale.”21
Reliance admits that Nichols’ medical conditions prevent her from working in cold temperatures, and therefore prevent her from performing her current duties “in
a factory where the temperatures are kept at 40 degrees.”22 However, one of Reliance’s vocational experts
determined that Nichols’ occupation as it was performed
in the national economy was “sanitarian,” an occupation
with duties that do not require exposure to cold temperatures.23 Based on this determination, Reliance denied
Nichols’ application for disability benefits.24
Nichols asked Reliance to reconsider that denial, saying it raised the question of “whether your review procedures include blatantly ignoring the evidence on-hand”
about her occupational duties.25 Reliance says it “again
consulted” its vocational experts, who reached the same
conclusion as before: “[a]ny exposure to cold temperatures would be job-site specific,” rather than a duty of her
“regular occupation” as “[s]anitarian.”26 On that basis,
Reliance denied Nichols’ appeal.27

21

Id.

22

August 2016 Denial Letter, Docket No. 13-1 at 83-86.

23

Id.

24

Id.

25

Letter from Juanita Nichols, Docket No. 13-1 at 229-30.

26

December 2016 Denial Letter, Docket No. 13-1 at 93-94.

27

Id.

28a
Nichols promptly filed this lawsuit against Reliance to
challenge her denial under the Employee Retirement Income Security Act (also known as “ERISA”).28 The Act’s
purpose is, in part, to “protect” workers “by establishing
standards of conduct” for those who manage their benefit
plans.29 The Act allows employees to “recover benefits
due” under a covered plan,30 like Pecos’ plan with Reliance.31
Under that plan, Reliance had the right to both determine benefit eligibility and interpret the plan’s terms.32
Therefore, the Supreme Court says Nichols can only recover benefits under the Act if Reliance abused its discretion in denying her benefits.33 Nichols claims Reliance
abused that discretion by, among other things, “having
erroneously concluded” that she could “perform the essential duties of her occupation.”34
In the Fifth Circuit, an insurer “abuses its discretion
when the decision is not based on evidence, even if disputable, that clearly supports the basis for its denial.”35 The
28

Complaint, Docket No. 1.

29
Congressional Findings and Declaration of Policy, 29 U.S.C. §
1001; see also James Wooten, THE EMPLOYEE RETIREMENT INCOME
SECURITY ACT OF 1974: A POLITICAL HISTORY (2005).
30

Civil Enforcement, 29 U.S.C. § 1132(a)(1).

31

Reliance Policy Number LTD 114776, Docket No. 13-1 at 1-31.

32

Id.

33

Firestone Tire & Rubber Co. v. Bruch, 489 U.S. 101, 111 (1989).

34

Complaint, Docket No. 1 at 4, 7.

Schexnayder v. Hartford Life & Acc. Ins. Co., 600 F.3d 465, 468 (5th
Cir. 2010) (quotation marks omitted).

35

29a
Supreme Court has held that such abuse of discretion review must “take account of . . . several different, often
case-specific, factors, reaching a result by weighing all
[factors] together.”36 Furthermore, “a conflict of interest
. . . must be weighed as a factor in determining whether
there is an abuse of discretion.”37
Given this “combination-of-factors method of review,”
the Fifth Circuit says that reviewing courts must not only
check if an insurer “based its decision on substantial evidence,” but “must [also] consider other factors,” such as
an insurer’s “conflict of interest” and how the insurer
“treat[ed]” any government determination about a claimant’s disability.38
II
Abuse of Discretion Analysis
The record does not reflect any government determination about Nichols’ disability.39 Therefore, two factors
are relevant to the Court’s abuse of discretion analysis:
whether Reliance’s denial was supported by substantial
evidence, and whether Reliance has a conflict of interest.
A
Did Reliance Base its Denial on Substantial Evidence?
No.

36

Metro. Life Ins. Co. v. Glenn, 554 U.S. 105, 128 (2008).

37

Id. at 111 (quotation marks omitted and emphasis added).

38

Schexnayder, 600 F.3d at 469-70.

39

Initial Telephone Interview, Docket No. 13-1 at 75-76.

30a
The Supreme Court says evidence is “substantial”
when a “reasonable mind might accept” it to “support a
conclusion.”40 Substantial evidence is thus a specific
“quantity” of evidence.41 The precise quantity is unclear,
but it is more than the amount necessary to have a “suspicion” something is true.42 A decision is supported by
substantial evidence only when it is “justified by a fair estimate” of “the record as a whole.”43
Reliance denied Nichols’ application because an occupational review by one of its vocational specialists, Jody
Barach, determined that exposure to cold temperatures
was not among the “material duties” of Nichols’ “regular
occupation.”44 This conclusion is not based on a fair estimate of the record evidence.
Reliance’s policy with Peco states that Nichols’ “regular occupation” is defined by its duties as they are “normally performed in the national economy,” rather than
“the unique duties performed for a specific employer or
specific locale.”45 Reliance admits that this definition of
“regular occupation” is “close if not identical to the Fifth
Circuit’s interpretation of the term in House v. Am.

Dickinson v. Zurko, 527 U.S. 150, 162 (1999) (quoting Consol. Edison Co. of New York v. N.L.R.B., 305 U.S. 197, 229 (1938))
40

41

Steadman v. S. E. C., 450 U.S. 91, 98 (1981).

See Dickinson, 527 U.S. at 159; Consolo v. Fed. Mar. Comm’n, 383
U.S. 607, 620 (1966) (quoting N.L.R.B. v. Columbian Enameling &
Stamping Co., 306 U.S. 292, 300 (1939)).

42

43

Universal Camera Corp. v. N.L.R.B., 340 U.S. 474, 466, 488 (1951).

44

See December 2016 Denial Letter, Docket No. 13-1 at 93-94.

45

Reliance Policy Number LTD 114776, Docket No. 13-1 at 1-31.

31a
United Life Ins. Co.”46 In that case, the Fifth Circuit held
that an employee’s “regular occupation” is defined by its
duties as they are performed “in the general economy.”47
To determine what those occupational duties are, the
Fifth Circuit says insurers must review the “specific duties of the employee’s job, as described by the employer”;
these specific duties are “relevant” because they “well illustrate” occupational duties.48
Nichols’ specific job duties, as described by her employer, fell into three categories. Duties in the first required her to educate other employees in proper sanitary
practice; such duties included “train[ing] quality assurance employees” in sanitary procedures.49 Duties in the
second category required Nichols to inspect meat products; such duties included “[p]hysically inspect[ing]” processed chicken for “bones,” “feathers,” “infection,” “fat
levels,” and “bruising in excess.”50 Duties in the final category required Nichols to package and export meat products; such duties include “packaging and labeling prod-

46
Memo Supporting Motion for Summary Judgment, Docket No. 18
at 7 (citing House v. Am. United Life Ins. Co., 499 F.3d 443, 454 (5th
Cir. 2007)).
47

House, 499 F.3d at 454.

48
See Burtch v. Hartford Life & Accident Ins. Co., 314 F. App’x. 750,
755 (5th Cir. 2009) (citing Robinson v. Aetna Life Ins. Co., 443 F.3d
389 (5th Cir. 2006)); see also Kavanay v. Liberty Life Assur. Co. of
Boston, 914 F. Supp. 2d 832, 835 (S.D. Miss. 2012).

Peco Foods Job Description: HACCP Coordinator, Docket No. 131 at 114.
49

50

Id.

32a
ucts,” and “provid[ing] all paperwork required for the export of product.”51 Thus, wherever Nichols’ job was performed in the national economy, it would require her to
perform sanitary-training duties, meat inspection duties,
and meat packaging duties.
Common sense says that an occupation involving inspection and packaging of meat products would require
exposure to refrigeration and low temperatures. This
common sense is reflected here. The plant where Nichols
worked was kept near freezing.52 It is also reflected in the
Dictionary of Occupational Titles, the source Reliance
used to define the duties of Nichols’ regular occupation.
While no single Title covers all three categories of Nichols’ job duties, those that include meat inspection and
meat packaging duties appear to require work in refrigerated environments.53 Indeed, the Title that best captures Nichols’ meat inspection and packaging duties—
with duties like “[e]xamin[ing] carcasses to determine
condition of meat” and putting “information” on “inspection tag[s],” “[s]tamps,” and “date tags” to prepare “meat

51

Id.

Independent Review of Dr. Sharon X. Xu, Docket No. 13-1 at 26168; see also December 2016 Denial Letter, Docket No. 13-1 at 93-94.

52

53
See, e.g., Cooler Room Worker (Meat Products), Dictionary of Occupational Titles 525.687-022; Poultry-Dressing Worker (Meat Products), Dictionary of Occupational Titles 079.117-018; Laborer (Meat
Products), Dictionary of Occupational Titles 529.687-130; Supervisor,
Tank House (Meat Products), Dictionary of Occupational Titles
525.132-014; Supervisor, Poultry Processing (Meat Products), Dictionary of Occupational Titles 525.134-014.

33a
cuts” for “shipping . . . and . . . delivery”—has cold temperatures built into its name: “Cooler Room Worker
(Meat Products).”54
In concluding that Nichols was able to perform the
duties of her regular occupation, Barach’s “occupation review” ignored both common sense and the record evidence.55 That re-view is two pages long, and contains
barely 100 words actually written by Barach.56 Most of the
review is copy-and-pasted text from the Dictionary of Occupational Titles and a doctor’s review of Nichols’ medical
records.57 Barach references no other sources, not even
the official description of Nichols’ job duties as written by
her employer.58
Barach cites no evidence to support the determination
that Nichols was “employed as a Sanitarian,” with duties
identical to those within the “Sanitarian (Any Industry)”
Title.59 Furthermore, that Title only captures one category of Nichols’ core job duties, those involving sanitation
training.60 It does not include any meat inspection duties;
instead, it merely has a vague duty to “[i]nspec[t] products . . . for conformity to federal and state sanitation laws
Cooler Room Worker (Meat Products), Dictionary of Occupational
Titles 525.687-022.

54

55

Vocational Opinion of Jody Barach, Docket No. 13-1 at 272-73.

56

Id.

57

Id.

58

Id.

Id.; see also Sanitarian (Any Industry), Dictionary of Occupational
Titles 529.137-014.
59

60
Sanitarian (Any Industry), Dictionary of Occupational Titles
529.137-014.

34a
and plant standards.”61 Most importantly, the Title includes no packaging duties, let alone any meat packaging
duties.
There is no justification for fitting the square peg of
Nichols’ job into the round hole of “Sanitarian (Any Industry).” As many courts have recognized, it is “unreasonable” for a vocational expert to define occupational duties by relying exclusively on a single Dictionary Title
“that does not refer” to important job duties.62 If no Dictionary Title covered Nichols’ core job duties, Barach
should have done what vocational experts often do: “blend
[duties] of two different . . . Titles.”63 If that had happened,
Barach would have incorporated the duties of a Title that
involved exposure to cold temperatures.
True, Barach’s conclusion about Nichols’ occupation
echoes that of another of Reliance’s vocational specialists,
Matthew Bolks, who conducted the occupational determination used to justify the initial, pre-appeal denial of
Nichols’ application.64 However, Bolks’ review suffers
from the same fatal flaws as Barach’s. It consists entirely
of conclusory statements and boilerplate language pulled
61

Id.

62
Lasser v. Reliance Standard Life Ins. Co., 344 F.3d 381, 387 n. 5 (3d
Cir. 2003); see also Kinstler v. First Reliance Life Ins. Co., 181 F.3d
243, 253 (2d Cir. 1999); Popovich v. Metro. Life Ins. Co., 281 F. Supp.
3d 993, 1007 (C.D. Cal. 2017).

See Shahpazian, 388 F. Supp. 2d at 1371; see also Rucker v. Life
Ins. Co. of N. Am., No. CIV.A. 10-3308, 2012 WL 956507, at *10 (E.D.
La. Mar. 20, 2012); Nelson v. Unum Life Ins. Co. of Am., 421 F. Supp.
2d 558, 569 (E.D.N.Y. 2006).
63

Compare August 2016 Denial Letter, Docket No. 13-1 at 83-86 with
December 2016 Denial Letter, Docket No. 13-1 at 93-94.

64

35a
from the Dictionary of Occupational Titles, and it cites no
support for the claim that Nichols’ occupational duties
were identical to those of “Sanitarian (Any Industry).”65
Bolks’ cursory review does not support a conclusion that
Nichols could perform the material duties of her occupation.
In sum, Reliance’s denial of Nichols’ was unsupported
by any evidence, let alone substantial evidence.
B
Does Reliance Have a Conflict of Interest?
Yes.
Under its plan with Nichols’ employer, Reliance both
evaluates and pays benefits claims.66 It “potentially benefits from every denied claim,” and therefore is operating
under a conflict of interest, as Reliance itself admits.67 The
Supreme Court has held that, when an insurer is “operating under a conflict of interest,” that conflict “must be
weighed as a factor in determining whether there is an
abuse of discretion.”68 The question is how much weight
the Court should give Reliance’s conflict of interest.
As the Fifth Circuit has noted, the Supreme Court
“avoided enunciating a precise standard for evaluation of

65

Vocational Opinion of Matthew Bolks, Docket No. 13-1 at 192-95.

66

See Reliance Policy Number LTD 114776, Docket No. 13-1 at 1-31.

Schexnayder, 600 F.3d at 470 (quotation marks omitted); Motion
for Summary Judgment and Supporting Memo, Docket No. 18 at 6.
67

68
Glenn, 554 U.S. at 111-12 (quotation marks omitted and emphasis
added).

36a
the impact” of a conflict of interest in an abuse of discretion review.69 However, the Supreme Court has stated
that a conflict of interest “should prove more important”
when “circumstances suggest a higher likelihood that it
affected the benefits decision.”70 Such circumstances include when there is evidence that an insurer has a “history of biased claims administration.”71 Chief Justice Roberts has written that this evidence “can take many
forms,” and “may be shown by a pattern or practice of
unreasonably denying meritorious claims.”72
As an example of such a showing, the Chief Justice
has cited a review of federal cases conducted by the
United States District Court for the District of Massachusetts in Radford Trust v. First Unum Life Ins. Co. of
Am., which “reveal[ed] a disturbing pattern of erroneous
and arbitrary benefits denials, bad faith contract misinterpretations, and other unscrupulous tactics.”73 That review found 35 judicial opinions in the prior decade that
criticized or reversed disability benefits decision by First

69
Killen v. Reliance Standard Life Ins. Co., 776 F.3d 303, 311 (5th
Cir. 2015).
70

Glenn, 554 U.S. at 117.

71

Id.

Metro. Life Ins. Co. v. Glenn, 554 U.S. 105, 123 (2008) (Roberts,
C.J., concurring in part).
72

73
Id. (citing Radford Trust v. First Unum Life Ins. Co. of Am., 321
F.Supp.2d 226, 247 (D. Mass. 2004)); see also Aluisi v. Elliott Mfg. Co.
Plan, No. 104-CV-5373 AWI SMS, 2009 WL 565544, at *3-4 (E.D. Cal.
Mar. 5, 2009); McCauley v. First Unum Life Ins. Co., 551 F.3d 126,
137 (2d Cir. 2008).

37a
Unum, including 19 opinions reversing a decision as an
abuse of discretion or as arbitrary and capricious.74
The Radford Trust case review approach rejects, as
the Fifth Circuit does, a “batting average” approach that
merely “compare[s] the number of federal decisions reversing denials of benefits to the number of decisions affirming denials.”75 This is because any claims administrator is bound to make some wrong decisions. They are not,
however, bound to engage in arbitrary denials, bad faith
acts, and unscrupulous tactics.
Of course, as the Fifth Circuit has held, it is not
enough for a case review to recite mere conclusory statements in prior judicial opinions that an insurer has a history of biased claims administration.76 Furthermore, if a
review discovers an insurer has taken “active steps to reduce potential bias and to promote accuracy” to end a pattern of wrongdoing, a court cannot find that insurer to
have a history of biased claims administration.77 In short,
to establish such a history, a case review must find—as it
did in Radford Trust—a significant number of cases that,
when viewed together, describe an unmitigated pattern
of arbitrary and wrongful decisions.

74

Radford Trust, 321 F. Supp. 2d at 247 n. 20.

75
Hagen v. Aetna Ins. Co., 808 F.3d 1022, 1029 (5th Cir. 2015) (citing
Holmstrom v. Metro. Life Ins. Co., 615 F.3d 758, 768 (7th Cir. 2010)).

Truitt v. Unum Life Ins. Co. of Am., 729 F.3d 497, 514 (5th Cir.
2013).
76

77

Id. (citing Glenn, 554 U.S. at 117).

38a
This Court has conducted a cumbersome review of judicial opinions addressing Reliance’s behavior in disability cases.78 That review found over 100 opinions in the last
21 years criticizing Reliance’s disability decisions, including over 60 opinions reversing a decision as an abuse of
discretion or as arbitrary and capricious.79 These opinions
are often scathing.
78
The Court reviewed cases where either Reliance or First Reliance
Standard Life Insurance Company were named defendants, as the
latter company is a subsidiary wholly owned by Reliance that exists
to allow Reliance to sell insurance in New York. See Reliance Standard Life Insurance Company 2017 Annual Statement (2018); “Who
We Are,” Reliance Standard Website, accessed Jun. 25, 2018.

The Court discovered over 60 judicial opinions issued between 1997
and 2018 that found Reliance abused its discretion in making a disability benefits decision or made an arbitrary and capricious disability
benefits decision. Those decisions include: George v. Reliance Standard Life Ins. Co., 776 F.3d 349, 354-56 (5th Cir. 2015) (reversing lower
court affirmation of Reliance denial on an abuse of discretion standard, stating “[W]e have . . . been unable to locate any evidence that
supports [Reliance’s denial.]”); Hoff v. Reliance Standard Life Ins.
Co., 160 Fed.Appx. 652, 654 (9th Cir. 2005) (affirming lower court’s
reversal of a denial under abuse of discretion standard, finding that
Reliance had “an illogical interpretation of [a disability] policy and a
corresponding failure to investigate the facts”); Parke v. First Reliance Standard Life Ins. Co., No. CIV.99-1039(JRT/FLN), 2002 WL
31163129, at *7 (D. Minn. Sept. 25, 2002), aff’d in relevant part, 368
F.3d 999 (8th Cir. 2004) (Reliance “selected a [Dictionary of Occupational Titles entry] which classified plaintiff’s job as sedentary despite
clear evidence in the record that plaintiff’s position was not sedentary”); Wirries v. Reliance Standard Ins. Co., No. CV 01-565-EMHW, 2005 WL 2138682, at *9-10 (D. Idaho Sept. 1, 2005), aff’d sub
nom. Wirries v. Reliance Standard Life Ins. Co., 247 Fed.Appx. 870
(9th Cir. 2007) (Reliance relied on a “one paragraph report, based on
a paper review . . . [and] erroneous information” written by a doctor
“whose name has popped up in other reported cases involving Reliance”); Joas v. Reliance Standard Life Ins. Co., 621 F. Supp. 2d 1001,
79

39a

1010 (S.D. Cal. 2007), aff’d, 331 Fed.Appx. 464 (9th Cir. 2009) (Reliance based denial on “an unreasonable interpretation” of plan language); Lasser v. Reliance Standard Life Ins. Co., 146 F. Supp. 2d
619, 631-44 (D.N.J. 2001), aff’d, 344 F.3d 381 (3d Cir. 2003) (“Reliance
has exhibited a level of care which . . . cannot be squared with the
sensitive inquiry these important . . . cases require,” noting its decision was based on a “failure to adduce reliable vocational evidence,”
“reasoning [that] is circular,” having “misconstrued the concept of occupational disability,” and at least one “fundamental error”); Levinson v. Reliance Standard Life Ins. Co., 245 F.3d 1321, 1327 (11th Cir.
2001) (affirming lower court reversal of denial under an arbitrary and
capricious standard, finding no “reasonable basis” for Reliance’s denial); Okuno v. Reliance Standard Life Ins. Co., 836 F.3d 600, 610-12
(6th Cir. 2016) (reversing previously affirmed denial under an arbitrary and capricious standard, finding Reliance had a “lack of a diligent and reasoned resolution—evidenced by failure to examine [a
claimant], file review by health care professionals without the relevant skill set, failure to consult with [claimant’s] treating physicians,
and shifting explanations”); Bradshaw v. Reliance Standard Life Ins.
Co., 707 Fed.Appx. 599, 607-10 (11th Cir. 2017) (reversing lower court
and awarding benefits because “Reliance’s decision to deny [the]
claim was unreasonable”); McKay v. Reliance Standard Life Ins. Co.,
No. 1:06-CV-267, 2007 WL 2897870, at *7 (E.D. Tenn. Sept. 28, 2007),
aff’d, 428 Fed.Appx. 537 (6th Cir. 2011) (Reliance’s “failure to further
investigate” during a disability claim was “unreasonable and arbitrary”); Marcin v. Reliance Standard Life Ins. Co., 138 F. Supp. 3d
14, 30 (D.D.C. 2015), aff’d, 861 F.3d 254 (D.C. Cir. 2017) (finding that
Reliance performed “a selective review of the medical evidence,” used
a “mischaracterization” of the evidence, and exhibited “a failure to
meaningfully engage” with the evidence); Pemberton v. Reliance
Standard Life Ins. Co., No. CIV. A. 08-86-JBC, 2010 WL 60088, at
*2-5 (E.D. Ky. Jan. 5, 2010) (Reliance engaged in activity that “undermine[d] the integrity of its decision-making process”); McDevitt v.
Reliance Standard Life Ins. Co., 663 F. Supp. 2d 419, 423–24 (D. Md.
2009) (suggesting that Reliance became “blind or indifferent” to “the
ultimate purpose of insurance . . . is not to erect administrative barriers, increase transaction costs, or delay the payment of legitimate
claims”); Gatti v. Reliance Standard Life Ins. Co., No. CV01175TUC-FRZ, 2006 WL 664422, at *5 (D. Ariz. Mar. 13, 2006) (“Reliance’s non-medical personnel made ipse dixit conclusions about the

40a

DNA evidence that were unsupported by the record or by any medical evidence”); Williams v. Grp. Long Term Disability Ins., No. 05 C
4418, 2006 WL 2252550, at *6-7 (N.D. Ill. Aug. 2, 2006) (Reliance
“acted unreasonably by failing to utilize the assistance of experts
when their assistance was needed in evaluating [a disability] claim”
and “failing to provide [the claimant] with adequate notice of its decision”); Lederman v. Reliance Standard Life Ins. Co., No. 06-CV00825-WYD-MEH, 2009 WL 3161835, at *8-11 (D. Colo. Sept. 30,
2009) (noting “additional circumstances suggesting bad faith,” including Reliance trying to “defy an order of the Court” involving disability
benefits, finding it “particularly troubling” that Reliance “did not provide [medical reviewers] with the complete record”); Small v. First
Reliance Standard Life Ins. Co., No. CIV.A. 02-3744, 2005 WL
486614, at *4-6 (E.D. Pa. Feb. 28, 2005) (Reliance “selectively interpreted [evidence] to opportunistically deny [a] claim” for “self-serving reasons,” and performed an “inadequate assessment of [a claimant’s] ability to perform the material duties of her job”); Archuleta v.
Reliance Standard Life Ins. Co., 504 F. Supp. 2d 876, 883-85 (C.D.
Cal. 2007) (finding “abundant evidence” that Reliance’s denial “was
greatly impacted by its conflict of interest,” including a “remarkable”
“fail[ure] to investigate” and using a “vocational report [that] was
flawed”); Kochenderfer v. Reliance Standard Life Ins. Co., No. 06CV-620 JLS (NLS), 2009 WL 4722831, at *7-11 (S.D. Cal. Dec. 4,
2009) (noting that “[t]he evidence on which [Reliance] relied to support its position was substantially flawed and overwhelmingly outweighed by evidence to the contrary,” citing numerous cases to show
that Reliance “regularly retain[ed]” a medical expert with “an incentive to [make] outcomes in [Reliance’s] favor” while being “on notice
of this bias issue based on prior judicial criticism”); Kaelin v. Tenet
Employee Ben. Plan, No. CIV.A.04-2871, 2007 WL 4142770, at *10
(E.D. Pa. Nov. 21, 2007) (finding “Reliance’s [occupational] methodology to be unreasonable”); Small v. First Reliance Standard Life
Ins. Co., No. CIV.A. 02-3744, 2005 WL 486614, at *4 (E.D. Pa. Feb.
28, 2005) (finding that “Reliance selectively used medical information
and . . . inadequately assessed [a claimant’s] ability to perform the
material duties of her job”); Shore v. Painewebber Long Term Disability Plan, No. 04-CV-4152 (KMK), 2007 WL 3047113, at *12
(S.D.N.Y. Oct. 15, 2007) (“[By] reflexively using the [Dictionary of Occupational Titles entry] for ‘Educational Program Directors,’ [Reliance] clearly ignored the actual duties of Plaintiff’s job.”); Chambers

41a

v. Reliance Standard Life Ins. Co., No. 3:11-CV-459, 2013 WL
3712415, at *7 (S.D. Ohio July 12, 2013) (“Reliance cherry-picked the
medical records . . . to support its termination [of] benefits”); Buffaloe
v. Reliance Standard Life Ins. Co., No. 5:99-CV-710-BR(3), 2000 WL
33951195, at *8 (E.D.N.C. Oct. 26, 2000) (Reliance “abused its discretion in failing to account for plaintiff’s disabling back condition which
is clearly supported by the record”); McCloskey v. Reliance Standard
Life Ins. Co., No. 02:03CV579, 2006 WL 1437171, at *9 (W.D. Pa. Mar.
16, 2006) (“Reliance chose to ignore the physical requirements [of a
job] specifically set forth by [an] employer . . . and substituted the
definitions set forth in the [Dictionary of Occupational Titles] . . . such
classification [was] arbitrary.”); Smetana v. Reliance Standard Life
Ins. Co., No. CIV.A. 01-CV-4339, 2003 WL 22594263, at *7 (E.D. Pa.
Sept. 30, 2003) (Reliance “impermissibly used evidence that supported the denial of [ ] benefits, while failing to satisfactorily explain
its rejection of evidence supporting an award”); Rhodes v. First Reliance Standard Life Insurance Co., No. 3:10CV1289 VLB, 2011 WL
6936342, at *15 (D. Conn. Dec. 29, 2011) (Reliance’s denials of a single
claimant’s applications “demonstrate a pattern of arbitrary and capricious decision making”); Harper v. Reliance Standard Life Ins. Co.,
No. 07 C 3508, 2008 WL 2003175, at *8-10 (N.D. Ill. May 8, 2008) (“Reliance . . . incorrectly based its denial . . . on . . . the wrong [Dictionary
of Occupational Titles] job description that did not accurately describe [the claimant’s] job.”); Castle v. Reliance Standard Life Ins.
Co., 162 F. Supp. 2d 842, 861 (S.D. Ohio 2001) (Reliance “simply has
not offered a reasoned explanation, based on the evidence” for a denial) (internal quotation marks omitted); Pappas v. Reliance Standard Life Ins. Co., 20 F. Supp. 2d 923, 930-311 (E.D. Va. 1998) (“Reliance’s denial of benefits is based on . . . unreliable, irrelevant evidence,
[and] a misreading of the record . . . it is clear that Reliance put its
own financial interest above its fiduciary duty”); Miller v. Reliance
Standard Life Ins. Co., No. 304CV7203, 2005 WL 1334645, at *6-7
(N.D. Ohio June 6, 2005) (Reliance’s denial was “completely inconsistent” with the evidence); White v. Reliance Standard Life Ins. Co.,
No. 1:05-CV-2149-WSD, 2007 WL 187939, at *10 (N.D. Ga. Jan. 22,
2007) (Reliance “did not [give claimant] a full and fair review”);
Slachta v. Reliance Standard Life Ins. Co., 444 F. Supp. 2d 544, 552
(D.S.C. 2006) (Reliance’s denial “relie[d] upon mere assumptions”);
Ebert v. Reliance Standard Life Ins. Co., 171 F. Supp. 2d 726, 734-41
(S.D. Ohio 2001) (“The evidence on which [Reliance] relies as a basis

42a

to deny Plaintiff’s claim amounts to a few sentences . . . taken entirely
out of context,” and that Reliance “ignores several key documents,”
“selectively extracted limited portions of [a] report to bolster its denial of the claim,” and used a Dictionary of Occupational Titles that
was “not similar to Plaintiff’s actual job”); Creasy v. Reliance Standard Ins. Co., No. CIV.A. 07-3789, 2008 WL 834380, at *4 (E.D. Pa.
Mar. 26, 2008) (Reliance “improperly determined [claimant’s] regular
occupation”); Diamond v. Reliance Standard Life Ins., 672 F. Supp.
2d 530, 537-38 (S.D.N.Y. 2009) (Reliance’s denial featured “a number
of procedural irregularities”); Songer v. Reliance Standard Life Ins.
Co., 106 F. Supp. 3d 664, 677 (W.D. Pa. 2015) (Reliance’s denial was
“fraught with procedural irregularities”); Badawy v. First Reliance
Standard Life Ins. Co., No. 04 CIV. 01619 (RJH), 2005 WL 2396908,
at *12-13 (S.D.N.Y. Sept. 28, 2005) (Reliance made a denial “without
full and fair consideration” of the evidence); Rogers v. Reliance
Standard Life Ins. Co., No. 14 C 4029, 2015 WL 2148406, at *8 (N.D.
Ill. May 6, 2015); (finding “an absence of reasoning on Reliance’s
part”) (internal quotation marks omitted); Taylor v. Reliance Standard Life Ins. Co., 837 F. Supp. 2d 1194, 1207-10 (W.D. Wash. 2011);
(Reliance “arbitrarily refused to credit [claimant’s] objective evidence” and “failed to . . . engage in a meaningful dialogue with [claimant]”);
Lederman
v.
Analex
Corp.,
No.
CIV.A06CV00825EWNMEH, 2007 WL 2701575, at *8-9 (D. Colo. Sept. 12,
2007) (Reliance “improperly denied [claimant] a full and fair review
of her claim”); MacLeod v. Reliance Standard Life Ins. Co., No. 09CV-118-JD, 2010 WL 597005, at *8-10 (D.N.H. Feb. 18, 2010) (Reliance “credited without question” an “unreasonable” medical report);
Williams v. Reliance Standard Life Ins. Co., 164 F. Supp. 3d 1230,
1253 (D. Or. 2016) (Reliance “was unreasonable” in its misinterpretation of evidence); Hann v. Reliance Standard Life Ins. Co., No.
CIV.A. 1:09-2496, 2011 WL 1344516, at *9 (M.D. Pa. Mar. 18, 2011)
(finding that, in “considering Reliance[’s] conflict of interest,” the
company “strayed from the contract requirements to reduce the
monthly benefit amount, which worked in Reliance[’s] favor”); Wernicki-Stevens v. Reliance Standard Life Ins. Co., 641 F. Supp. 2d 418,
427 (E.D. Pa. 2009) (“[T]he Court is unable to find that Reliance’s decision to discontinue [disability] benefits was supported by sufficient
evidence.”); Hardt v. Reliance Standard Life Ins. Co., 540 F. Supp.
2d 656, 663-34 (E.D. Va. 2008) (“In addition to relying on an incomplete record, Reliance’s decision to deny benefits was also inadequate

43a

because it improperly rejected much of the evidence that [claimant]
submitted.”); Connelly v. Reliance Standard Life Ins. Co., No.
CIV.A. 13-5934, 2014 WL 2452217, at *5-7 (E.D. Pa. June 2, 2014)
(“Reliance failed to conduct an inperson exam for a psychiatric disability, unreasonably relied upon the opinion of a non-treating physician, relied upon favorable parts while arbitrarily ignoring unfavorable parts of the notes and letters from [claimant’s] treating physician
and therapist, and changed its opinion regarding [claimant’s] disability without any corresponding change in [claimant’s] medical condition. . . . [Reliance’s] selective reliance on only portions of [claimant’s]
evidence and almost total dependence on the opinion of one independent consultant who never personally examined [claimant] was unfair
and unreasonable.”); Mason v. Reliance Standard Life Ins. Co., 2017
BL 92587, at 6 (D. Colo. Mar. 22, 2017) (Reliance’s denial “appears to
be based [in part] on pure speculation”); Omasta v. Choices Benefit
Plan, Reliance Standard Life Insurance Company, 352 F. Supp. 2d
1201, 1210-12 (D. Utah 2004) (“Reliance . . . arbitrarily and capriciously discounted all of the clear and consistent evidence that [claimant] provided to show he was disabled; failed to follow its own medical
reviewer’s strong and repeated recommendations that it obtain all of
[claimant’s] available medical information; arbitrarily discounted the
determination of the Social Security Administration that [claimant]
was completed disabled; arbitrarily discounted the opinions of all of
his treating physicians that he was disabled; failed to allow [claimant]
an opportunity to provide relevant medical information to the records
reviewers; [ ] closed its record on appeal without notice to [claimant,]
. . . Reliance created a skewed administrative record discounting all
of the substantial evidence of Plaintiff’s disability. . . . There is no
other explanation for Reliance’s discounting of all of the evidence of
impairments and its failure to provide its experts with easily available
information other than the decision was tainted by Reliance’s own
conflict of interest.”); Pickert v. Reliance Standard Life Ins. Co., No.
5:13-CV-2222-TMP, 2015 WL 12697726, at *9 (N.D. Ala. June 9, 2015)
(“Reliance unreasonably ignored, disregarded, or cherry-picked multiple treating physicians’ findings.”); Conrad v. Reliance Standard
Life Ins. Co., 292 F. Supp. 2d 233, 237-38 (D. Mass. 2003) (“Reliance
reached its decision to reject [the] claim in an unreasonable, and thus
arbitrary and capricious, manner. The central problem with the decision is its heavy dependence on the two reports produced by Dr.
Hauptman, [which] . . . betray a palpable bias in favor of rejecting the

44a

claim.”); McGuigan v. Reliance Standard Life Ins. Co., No. CIV.A.
02-7691, 2003 WL 22283831, at *5-10 (E.D. Pa. Oct. 6, 2003)
(“[N]umerous actions by Reliance during the review of [the] claim
suggest that bias and a conflict of interest influenced the decision to
deny [the] claim for disability benefits. . . . There are numerous ways
in which Reliance performed a self-serving, selective and incomplete
review of [claimant’s] medical records. . . . Reliance demonstrated an
inattentive process in reviewing [the] claim. . . . Reliance’s reasons for
denying [the] claim were unreasonable.”); Kelly v. Reliance Standard
Life Ins. Co., No. CIV.A. 09-2478 KSH, 2011 WL 6756932, at *1-11
(D.N.J. Dec. 22, 2011) (“[T]he Court considers Reliance’s inherent
conflict of interest, the questionable aspects of its pre-final decision
making process, and, most importantly, three troubling aspects of
Reliance’s final review: (1) an inappropriately selective evaluation of
the evidence, (2) the rejection of selfreported and subjective evidence
while relying on a claimed lack of objective evidence, and (3) an absence of any substantive evaluation of material job duties and the
claimant’s ability to perform them. . . . Reliance had denied [the] claim
by (1) relying on an incorrect job description . . . and (2) improperly
defining ‘regular occupation’ generally as opposed to taking into account the actual job duties performed . . . Reliance relied heavily on
the submission of the Vocational Specialist. Neither the Vocational
Specialist nor Reliance determined which duties were material duties
of Kelly’s job.”) (internal citations omitted); Brende v. Reliance
Standard Life Ins. Co., No. 15-9711-JAR-TJJ, 2017 WL 4222982, at
*11 (D. Kan. Sept. 22, 2017) (“Reliance’s decision was unreasonable
because it failed to consider Brende’s actual job duties in defining her
regular occupation. . . . These omissions are troubling.”); Freling v.
Reliance Standard Life Ins. Co., 315 F. Supp. 2d 1277, 1290-96 (S.D.
Fla. 2004) (“[Reliance’s] reliance on the [Dictionary of Occupational
Titles] was improper because the [Dictionary] classification chosen by
[Reliance] did not reflect the character of [claimant’s] job . . . [T]he
decision was tainted by self-interest.”); Greene v. Reliance Standard
Life Ins. Co., No. CIV.A.7:03 CV 00025, 2004 WL 2634416, at *2 (W.D.
Va. Oct. 26, 2004) (“Reliance failed to accurately list [claimant’s] actual duties; rather, they seem to have relied on exclusively the generic
definition of ‘salesperson’ provided by the [Dictionary of Occupational
Titles], never considering the crawling and climbing activities in
which [claimant] regularly engaged. The court finds this misplaced
reliance on the [Dictionary] definition to have been unreasonable

45a

[here], given the disparity between the [Dictionary] description of
‘salesperson’ and the reality of [claimant’s] regular occupation.”);
Nelson-Vander Zyl v. Reliance Standard Life Ins. Co., No. 4:08-CV00221-JEG, 2009 WL 10665021, at *7-10 (S.D. Iowa Oct. 22, 2009)
(“[Reliance] changes the applicable job definitions when doing so only
serves [their] purposes. . . . Reliance’s vocational rehabilitation specialist classified [claimant’s] job within the [Dictionary of Occupational Titles] and did not evaluate her capacity to perform her occupation,” and “ignore[d] occupational restrictions and other relevant
evidence”); Smith v. Reliance Standard Life Ins. Co., 350 F. Supp. 2d
993, 1000-02 (S.D. Fla. 2004) (“Reliance’s interpretation of ‘material
duty’ is also unreasonable. Not only does Reliance fail to consider
Smith’s duties in his regular occupation, as was reported to Reliance
. . . on the claim forms, in favor of the general duties listed in the [Dictionary of Occupational Titles], but Reliance also fails to consider
whether any of the duties listed in the [Dictionary] are ‘material duties.’ . . . Additionally, the statements relied on by Reliance [to deny
the claim] were taken out of context.”); Sexton v. Grp. Long Term
Disability Plan for Employees of Inmar Enterprises, Inc., No.
3:04CV2475, 2006 WL 559908, at *4-5 (M.D. Pa. Mar. 7, 2006) (“Instead of determining the actual duties plaintiff performed, Reliance
based its denial of benefits on the occupation as it exists in the general
labor market. Accordingly, the decision to deny benefits is based upon
inappropriate grounds, and is erroneous as a matter of law.”); Rodriguez v. Reliance Standard Life Ins. Co., No. 13-CV-1157 MCA/SCY,
2016 WL 6023826, at *7-9 (D.N.M. Feb. 3, 2016) (Reliance “encouraged [claimant] to apply for Social Security Disability benefits, hired
a contractor to assist [claimant] in obtaining those benefits, and recovered for itself nearly all of the retroactive Social Security disability
benefits [claimant] received. . . . [Reliance] initially took the position
that [claimant] was disabled, but, after it recouped much of what it
had paid [claimant] in initial long-term disability benefits out of
[claimant’s] award of retroactive Social Security Disability benefits,
[Reliance] decided to further investigate and ultimately changed its
position. . . . [Reliance] failed to consider pertinent evidence that
[claimant] does not have the . . . ‘education, training and experience’
necessary to perform the work it identified.”) (internal citations omitted); Anderson v. Reliance Standard Life Ins. Co., No. CIV. WDQ11-1188, 2013 WL 1190782, at *11 (D. Md. Mar. 21, 2013) (“The only
credible evidence that Reliance had favoring terminating [claimant’s]

46a

benefits was [a doctor’s] peer review. Although it is not unreasonable
for an insurer to rely on paper peer reviews, [the] report offered little
information about [claimant’s] condition other than its bare conclusion that he was capable of sedentary work. This is not substantial
evidence for Reliance’s [denial].”) (internal citations omitted); Mason
v. Reliance Standard Life Ins. Co., No. 14-CV-01415-MSKNYW,
2015 WL 5719648, at *10 (D. Colo. Sept. 30, 2015) (“Reliance’s failure
to properly weigh the evidence supplied by [claimant] warrants remand. . . . Reliance’s dismissal of evidence of symptoms and limitations experienced by [claimant] during the Elimination Period was
precursory.”).
The Court also found judicial opinions reversing an erroneous
disability decision by Reliance under a de novo standard of review,
many of which criticize Reliance’s claims handling process. These
opinions include: Cyr v. Reliance Standard Life Ins. Co., 525 F. Supp.
2d 1165, 1174-76 (C.D. Cal. 2007), aff’d, 448 Fed.Appx. 749 (9th Cir.
2011) (Reliance’s acts, including having “lost” a claimant’s “entire administrative record,” amounts to behavior that “reeks of bad faith”);
West v. First Reliance Standard Life Ins. Co., slip op. at 24-25 (C.D.
Cal. Jul. 9, 2001); Kinstler v. First Reliance Standard Life Ins. Co.,
No. 96 CIV. 921 (PKL), 1997 WL 401813, at *8 n. 6 (S.D.N.Y. July 16,
1997), aff’d, 181 F.3d 243 (2d Cir. 1999) (“The Court would reach the
same result even if the applicable standard of review were the more
deferential arbitrary and capricious standard. [Reliance], by applying
its own extreme interpretation of the term regular occupation and focusing its evaluation on the job title rather than the actual characteristics of plaintiff’s occupation, imposed a standard not required by the
plan’s provisions or interpreted the plan in a manner inconsistent
with its plain words.”) (internal citations and quotation marks omitted); Cothran v. Reliance Standard Life Ins. Co., No. CA 6:98-348920, 1999 WL 33987897, at *4 (D.S.C. Feb. 9, 1999), aff’d, 202 F.3d 257
(4th Cir. 1999) (“Reliance should classify mental disorders with more
precision”); Smith v. Reliance Standard Life Ins. Co., 322 F. Supp.
2d 1168, 1177-79 (D. Colo. 2004) (Reliance’s “cherry picking among
the findings of a treating physician raises questions about whether
the [a disability] review was objective or was designed to substantiate
the desired decision to limit benefits”) (internal citations and quotation marks omitted); Cabana v. Reliance Standard Life Ins. Co., No.
ED CV 13-1741 GAF, 2014 WL 4793036, at *8 (C.D. Cal. Sept. 25,

47a

2014) (Reliance used “conclusory findings” from an expert, which “are
a thin reed upon which to base [a] termination of benefits”); Jarillo v.
Reliance Standard Life Ins. Co., No. 15CV2677-MMA (BLM), 2017
WL 1400006, at *8-11 (S.D. Cal. Apr. 19, 2017) (finding “troubling”
behavior by Reliance, including use of “an incomplete medical file”
and “shifting rationale” for denying benefits); Gravalin v. Reliance
Standard Life Ins., 592 F. Supp. 2d 1184, 1191–92 (D.N.D. 2009) (reversing under a de novo standard, while finding that “the decision of
Reliance [to deny benefits], and its interpretation of the policies at
issue, is also arbitrary and capricious”); Parr v. First Reliance Standard Life Ins. Co., No. 15-CV-01868-HSG, 2017 WL 1364610, at *13
(N.D. Cal. Mar. 31, 2017) (noting that the “vocational evaluation relied
upon by [Reliance] . . . was flawed,” and that Reliance used “sparse
and outdated [physical] surveillance” to justify a denial); Dionida v.
Reliance Standard Life Ins. Co., 50 F. Supp. 2d 934, 940-42 (N.D. Cal.
1999) (“Reliance collected detailed information regarding the duties
of [a claimant’s] job [but] there is no indication that Reliance compared those duties to the duties of the ‘other occupations’ [from the
Dictionary of Occupational Titles] it relied on in denying her claim.”);
Cochran v. Reliance Standard Life Ins. Co., No. ED-CV1602483JGBDTBX, 2018 WL 1725650, at *11-13 (C.D. Cal. Apr. 4,
2018) (Reliance used expert reports that “do not indicate what evidence supports [their] finding”); Logue v. Reliance Standard Life
Ins. Co., No. CIV. 01-264-B, 2002 WL 1211063, at *4 (D.N.H. June 4,
2002); Jones v. Reliance Standard Life Ins. Co., No. 01 C 2735, 2003
WL 21730124, at *3 (N.D. Ill. July 24, 2003) (“The only doctor who
concurred with [a non-disabled] finding was [the] doctor hired by Reliance . . . who never examined [the claimant.]”); Campos v. Reliance
Standard Life Ins. Co., No. 215-CV-08304ODWGJSX, 2017 WL
1370691, at *5 (C.D. Cal. Apr. 12, 2017); Cecil v. Reliance Standard
Life Ins. Co., No. 7:05CV00003, 2005 WL 2291225, at *10 (W.D. Va.
Sept. 19, 2005) (Reliance’s refusal to “consider” evidence denied a
claimant “a full and fair review of her claim”); Watson v. Reliance
Standard Life Ins. Co., No. 14 C 4990, 2017 WL 5418768, at *11 (N.D.
Ill. Nov. 14, 2017) (Reliance used “misguided” and “[im]plausible” interpretations of evidence); Wallace v. Beaumont Healthcare Employee Welfare Benefit Plan, No. CV 16-10625, 2017 WL 4987675, at
*7 (E.D. Mich. Nov. 2, 2017) (“A remand simply would afford Reliance
the chance . . . to dig up new evidence to support a different reason
for denying [the claimant’s disability] claim.”); Druhot v. Reliance

48a

Standard Life Ins. Co., No. 16-CV-2053, 2017 WL 4310653, at *12
(N.D. Ill. Sept. 28, 2017) (Reliance’s behavior during a denial “smacks
of bad faith”); Vaughan v. Reliance Standard Life Ins. Co., 2017 BL
312177, 9 (D. Ariz. Sept. 01, 2017) (Reliance “hastily rejected—or perhaps ignored entirely—[claimant’s] evidence”).
Finally, the Court found many other judicial opinions criticizing
Reliance’s claims handling process. These opinions include: Adams v.
Reliance Standard Life Ins. Co., 225 F.3d 1179, 1182 (10th Cir. 2000)
(affirming lower court’s “determination that Reliance misinterpreted
the terms of a long term disability policy and thereby underpaid . . .
benefits due under the policy”); O’Bryhim v. Reliance Standard Life
Ins. Co., 997 F. Supp. 728, 733 (E.D. Va. 1998), aff’d, 188 F.3d 502 (4th
Cir. 1999) (describing “bad faith on the part of Reliance” during benefits determination); Pinto v. Reliance Standard Life Ins. Co., 214
F.3d 377, 393 (3d Cir. 2000), as amended (Jul. 19, 2000) (finding the
evidence “support[s] the view that whenever it was at a crossroads,
Reliance . . . chose the decision disfavorable to [claimant]”); Weinberger v. Reliance Standard Life Ins. Co., 54 Fed.Appx. 553, 556 (3d
Cir. 2002) (criticizing Reliance for “inappropriate” use of the Dictionary of Occupational Titles while ignoring “a job description setting
forth the actual requirements of [the claimant’s] position”); Lasser v.
Reliance Standard Life Ins. Co., 344 F.3d 381, 386 (3d Cir. 2003)
(finding it “unreasonable for Reliance to define ‘regular occupation’
differently from its plain meaning”); Shahpazian v. Reliance Standard Life Ins. Co., 388 F. Supp. 2d 1368, 1379 (N.D. Ga. 2005) (describing Reliance’s “extreme” and “unreasonable” occupation determination methodology, which included an “enslaved dependence” on the
Dictionary of Occupational Title’s occupational descriptions “despite
the fact that these descriptions, individually or when blended, did not
reflect certain material duties of [claimant’s] position. Its rigid reliance on the generic [Dictionary] descriptions, even if multiple descriptions are blended, requires, in circumstances like these, pounding square pegs into round holes”); Hann v. Reliance Standard Life
Ins. Co., No. 09-CV-2496, 2011 WL 1344502, at *4 (M.D. Pa. Apr. 8,
2011) (Reliance took “arbitrary and capricious . . . action that was
clearly inconsistent with the unambiguous terms of the contract . . .
to reduce [disability] benefit amount, which quite clearly worked to
[Reliance’s] own benefit”); Wilkerson v. Reliance Standard Life Ins.
Co., No. CIV. A. 99-4799, 2001 WL 484126, at *1 (E.D. Pa. Mar. 6,

49a

2001) (“In my view . . . [Reliance’s] denial decision may very well have
been tainted by self-interest, and may have been erroneous. Arguably, the defendant was quite selective in its reading of the medical
reports.”); Friess v. Reliance Standard Life Ins. Co., 122 F. Supp. 2d
566, 574-75 (E.D. Pa. 2000) (“Reliance may have conducted an unreasonably lax investigation into [a disability] claim” and “may have used
[evidence] selectively.”); Cyr v. Reliance Standard Life Ins. Co., No.
CV 06-01585DDPRCX, 2008 WL 7095148, at *13 (C.D. Cal. Jan. 16,
2008), aff’d, 448 Fed.Appx. 749 (9th Cir. 2011) (awarding prejudgment
interest in a benefits recovery case because of Reliance’s “obfuscation
and delay tactics,” which prevented a claiming from “receiv[ing] her
benefits a long time ago”); Combs v. Reliance Standard Life Ins. Co.,
No. 2:08CV102, 2009 WL 2902943, at *4-5 (S.D. Ohio Sept. 8, 2009)
(“[T]he Court is concerned that [Reliance’s] decision to deny Plaintiff
benefits was not the result of a deliberate, principled, reasoning process.”); Feggins v. Reliance Standard Life Ins. Co., No. 11-CV-073WMC, 2012 WL 12996107, at *9 (W.D. Wis. Jan. 19, 2012) (finding
that Reliance’s occupational review “appears to have effectively undercut plaintiff’s ability to make her case and build a complete record
of evidence for this court to review”); Sim v. Reliance Standard Life
Ins. Co., No. 1:15-CV-390, 2016 WL 319868, at *4 (S.D. Ohio Jan. 26,
2016) (Reliance issued a denial despite “Social Security Administration’s finding that plaintiff was totally disabled,” which was “evidence
suggestive of bias”); Buffkin v. Reliance Standard Life Ins. Co., No.
3:16-CV-21/MCR/CJK, 2017 WL 2903345, at *10 (N.D. Fla. Mar. 31,
2017) (“Reliance failed to engage in ongoing, good faith communications with [a disability claimant] to keep him informed of the process.”); Fitzgerald v. Long-Term Disability Plan of Packard’s on the
Plaza, Inc. and Reliance Standard Life Insurance Co., No. 11-CV956 JEC/ACT, 2013 WL 12178732, at *6 (D.N.M. Apr. 4, 2013) (“Reliance failed” to “process [a disability] appeal” in accordance with federal law); Senegal v. Reliance Standard Life Ins. Co., No. CV 16-1961,
2017 WL 175768, at *5 (E.D. La. Jan. 17, 2017) (Reliance violated the
Employee Retirement Income Security Act’s procedural requirements); Am. Soc’y for Technion-Israel Inst. of Tech., Inc. v. First Reliance Standard Life Ins. Co., No. 07 CIV. 3913 (LBS), 2009 WL
2883598, at *5 (S.D.N.Y. Sept. 8, 2009) (summarizing evidence suggesting that Reliance “violat[ed its] internal policy and procedure on
review of claims”); Sunderlin v. First Reliance Standard Life Ins.
Co., 235 F. Supp. 2d 222, 227-30 (W.D.N.Y. 2002) (noting “with strong

50a
Judges describe the behavior underlying Reliance’s
claims administration as “arbitrary,” “blind,” “conclusory,” “extreme,” “flawed,” “fraught,” “illogical,” “inadequate,” “inappropriate,” “incomplete,” “indifferent,”
“lax,” “misguided,” “opportunisti[c],” “precursory,”
“questionable,” “remarkable,” “selective,” “self-serving,”
“skewed,” “tainted,” “troubling,” “unfair,” “unreasonable,” and “unreliable.”80
These opinions reveal that Reliance takes a range of
extraordinary steps to deny claims for disability benefits.
Reliance makes “unreasonable” interpretations of benefit
plan language, going so far as to “misconstru[e] the concept of occupational disability.”81 Reliance “selectively interpret[s]” evidence so it can “opportunistically deny [a]
claim” for “self-serving reasons,”82 creating a “skewed ad-

disapproval” a “misstatement” by Reliance that it had “created a
claim file” after it “lost” that file and had “miscalculated the amount
owed”); Kochenderfer v. Reliance Standard Life Ins. Co., No. 06-CV620 JLS(NLS), 2010 WL 1912867, at *2 (S.D. Cal. Apr. 21, 2010)
(“[Reliance’s] work was fraught with a lack of diligence and other miscues, such as failing to consider all of the available evidence” when
denying a claim); Montoya v. Reliance Standard Life Ins. Co., No.
14-CV-02740-WHO, 2016 WL 5394024, at *13 (N.D. Cal. Sept. 27,
2016) (“Reliance erred and acted unreasonably” in its “rely[ing]
solely” on the Dictionary of Occupational Titles to determine material
duties).
80

See generally id.

See Hoff, 160 Fed.Appx. at 654; Joas, 621 F. Supp. 2d at 1010;
Lasser, 146 F. Supp. 2d at 631-44; Kinstler, 1997 WL 401813, at *8 n.
6.
81

82

See Small, 2005 WL 486614, at *4-6.

51a
ministrative record discounting all of the substantial evidence of . . . disability.”83 Reliance’s denials are “overwhelmingly outweighed by evidence to the contrary,”
“fraught with procedural irregularities,” and “blind or indifferent.”84 Those denials “rel[y] upon mere assumptions” and “demonstrate a pattern of arbitrary and capricious decision making.”85 Reliance uses “obfuscation and
delay tactics,” “fail[s] to engage in ongoing communications with [claimants] to keep [them] informed of the process,” makes “misstatement[s]” to claimants, “miscalculate[s] the amount owed,” and generally exhibits behavior
that “reeks of bad faith.”86 Reliance “regularly retain[s]”
experts with “an incentive to [make] outcomes in [their]
favor,” and uses expert reports that “betray a palpable
bias in favor of rejecting the claim.”87 Despite being “[put]
on notice of this bias issue” by “prior judicial criticism,”
Reliance still tells courts that “it does not choose . . . third-

83

See, e.g., Omasta, 352 F. Supp. 2d at 1210-12.

Songer, 106 F. Supp. 3d at 677; McDevitt, 663 F. Supp. at 423–24;
Lederman, 2009 WL 3161835, at *8-11; Kochenderfer, 2009 WL
4722831, at *7-11; Rhodes, 2011 WL 6936342, at *15; Slachta, 444 F.
Supp. 2d at 552.
84

85

Id.

Cyr, 2008 WL 7095148, at *13; Buffkin, at *10; Sunderlin, 235 F.
Supp. 2d at 227-30 (W.D.N.Y. 2002); Kochenderfer, 2010 WL 1912867,
at *2; Cecil, 2005 WL 2291225, at *10; Cyr, 525 F. Supp. 2d at 117476.

86

87
See Conrad, 292 F. Supp. 2d at 237-38; Kochenderfer, 2009 WL
4722831, at *7-11.

52a
party contractor[s] based on the outcomes.”88 Courts often conclude that Reliance’s denials are “greatly impacted” by “self-interest,” making it “clear that Reliance
put[s] its own financial interest above its fiduciary duty.”89
Courts reviewing Reliance’s behavior have long highlighted the specific wrong alleged by Nichols: the arbitrary determination of a claimant’s occupation. Reliance’s
occupational determination methodology has been derided as “extreme,” “far too blunt,” “troubling,” and “unreasonable.”90 Reliance’s experts make occupational determinations “without regard to the importance of [job]
duties.”91 Their reports “fai[l] to engage in any meaningful analysis of . . . material job duties,”92 and “offe[r] little
information . . . other than [a] bare conclusion [that] is not
substantial evidence.”93
Reliance may be justified in its use of the Department
of Labor’s Dictionary of Occupational Titles, which the
Fifth Circuit says “represents extensive fact gathering
and detailed data analysis” about the “material duties” of

Compare Kochenderfer, 2009 WL 4722831, at *7-11 with Fessenden
v. Reliance Standard Life Ins. Co., No. 3:15CV370-PPS, 2018 WL
461105, at *5 (N.D. Ind. Jan. 17, 2018).

88

89
Freling, 315 F. Supp. 2d at 1290-96; Archuleta, 504 F. Supp. 2d at
883-85; Pappas, 20 F. Supp. 2d at 930-311 (E.D. Va. 1998); Lasser, 130
F. Supp. 2d at 624.

See Brende, 2017 WL 4222982, at *11; Shahpazian, 388 F. Supp. 2d
at 1379; Lasser, 130 F. Supp. 2d at 624.

90

91

Smith, 350 F. Supp. 2d at 1000.

92

Kelly, 2011 WL 6756932, at *11.

93

Anderson, 2013 WL 1190782, at *11.

53a
various occupations.94 However, the way Reliance uses
the Dictionary has been deeply criticized by courts. Reliance has been admonished for “reflexively using” the Dictionary while having “clearly ignored the actual duties of
[a claimant’s] job.”95 Reliance “assume[s] the tasks listed
in the selected [Dictionary] classifications defin[e a claimant’s] material duties,” despite the “disparity” between a
classification “and the reality of [claimant’s] regular occupation.”96 In doing so, Reliance will “incorrectly bas[e] its
denial [on] the wrong [Dictionary] job description.”97 In
the words of one court, “Reliance, by applying its own extreme interpretation of the term regular occupation and
focusing its evaluation on the job title rather than the actual characteristics of plaintiff’s occupation . . . interpret[s] the plan in a manner inconsistent with its plain
words.”98
Courts have singled out the vocational expert involved
in Nichols’ appeal, Jody Barach, for using a particularly
cursory methodology.99 Barach creates “paper-reviews
reports” instead of assessing claimants in person.100 These
See Robinson v. Aetna Life Ins. Co., 443 F.3d 389, 394-95 (5th Cir.
2006).

94

95

Shore, 2007 WL 3047113, at *12.

96
Freling, 315 F. Supp. 2d at 1290-96; Greene, 2004 WL 2634416, at
*2.

McCloskey, 2006 WL 1437171, at *9; Harper, 2008 WL 2003175, at
*8-10.

97

98

Kinstler, 1997 WL 401813, at *8 n. 6.

See, e.g., Kelly, 2011 WL 6756932, at *6; Feggins, 2012 WL
12996107, at *9.
99

100

Kelly, 2011 WL 6756932, at *6.

54a
reports are typically “two page[s]” that amount to “a copied bulleted list of job responsibilities,” “copied portions”
of medical reports, and “conclusory remarks” regarding
occupational classification.101 Barach’s reports may “refer
to a [claimant’s] position by the wrong title,” “reject [a
claimant’s] description of [their] job duties,” and omit
“which duties were material duties.”102 Reliance’s tendency to give “greater weight” to Barach’s findings when
they support a denial has led at least one court to allow
bias-related discovery.103 Courts say Barach’s methodology “effectively undercut[s a claimant’s] ability to make
her case” for benefits.104 Despite these findings, Reliance
has continued to use Barach’s reports to deny claims
across the country.105
Reliance’s wrongful claims-related behavior is not a
localized problem. Courts in every federal circuit have repeatedly criticized the insurer’s claims management
practices.106 Even the Supreme Court has cited a finding
that “Reliance’s decision to deny [a claimant] long-term
101

Id. at *10.

102

Id.

See, e.g., Austin-Conrad v. Reliance Standard Life Ins. Co., No.
CV 4:10CV-00127-JHM, 2015 WL 4464103, at *5 (W.D. Ky. July 21,
2015).

103

104

Feggins, 2012 WL 12996107, at *9.

See, e.g., Balmert v. Reliance Standard Life Ins. Co., No. 2:07-CV95, 2008 WL 4404299, at *6 (S.D. Ohio Sept. 23, 2008); Dimery v. Reliance Standard Life Ins. Co., No. C 10-00481 JSW, 2012 WL
1067409, at *6 (N.D. Cal. Mar. 28, 2012); Galuszka v. Reliance Standard Life Ins. Co., No. 2:15-CV-241, 2017 WL 78889, at *16 (D. Vt. Jan.
9, 2017).

105

106

See supra n. 79.

55a
disability benefits was not based on substantial evidence.”107
Furthermore, despite discussing its conflict of interest in its briefing, Reliance has submitted no evidence
that it has taken steps to mitigate that conflict.108 As one
court has previously found, Reliance “has not demonstrated that it took any other procedural safeguards such
as walling off claims administrators or imposing management checks.”109 Whatever safeguards Reliance has imposed (if any) have not been enough, as judges have continued to criticize Reliance’s claims practices well into the
present.110
In sum, the judicial record establishes an unmitigated
pattern of arbitrary and wrongful behavior by Reliance.
The insurer indisputably has a history of biased claims
administration.
C
Did Reliance Abuse its Discretion by Denying Nichols Benefits?
Yes.
The fact that Reliance’s decision to deny Nichols benefits was devoid of evidentiary support is enough to prove
that the decision was an abuse of discretion. Reliance’s

Hardt v. Reliance Standard Life Ins. Co., 560 U.S. 242, 248 (2010)
(quoting Hardt, 540 F. Supp. 2d at 663).
107

108
Motion for Summary Judgment and Supporting Memo, Docket
No. 18 at 6-7.
109

See Rhodes, 2011 WL 6936342, at *17.

110

See Cochran, 2018 WL 1725650 at *11-13.

56a
long past of biased and wrongful claims denials in defiance of countless judicial warnings—a past marked by
the same faulty occupation determination process that
drove Nichols’ denial—simply underscores this conclusion.111 To be clear, “[t]he mere fact” that a conflict of interest exists “does not necessarily tip a close case in a
plan member’s favor.”112 However, on the record before
the Court, this case is far from close.
Reliance’s motion for summary judgment is therefore
DENIED, and its decision to deny Nichols benefits is
REVERSED.
III
Remedies
The Employee Retirement Income Security Act allows Nichols to “recover accrued benefits,” “obtain a declaratory judgment that she is entitled to [future] benefits,” and receive an “award of attorney’s fees.”113 Nichols
has requested all three of these remedies.114
The Fifth Circuit says a court should “award benefits”
under the Act to a claimant “where the record establishes
that the plan administrator’s denial of the claim was an

111

Schexnayder, 600 F.3d at 470-71.

112
Leipzig v. Prinicpal Life Ins. Co., 707 F.Supp.2d 685, 694 (N.D.
Tex. 2010)

Massachusetts Mut. Life Ins. Co. v. Russell, 473 U.S. 134, 146
(1985) (citing Civil Enforcement, 29 U.S.C. § 1132(g)).
113

114

Complaint, Docket No. 1.

57a
abuse of discretion.”115 Such is the case here. Further,
there is good reason why remand in this case is unwise.116
As one court cautioned, “remand simply would afford Reliance the chance . . . to dig up new evidence to support a
different reason for denying [a] claim.”117 Nichols is entitled to an award for past benefits and an order requiring
Reliance to pay her benefits in the future.
Regarding an attorney’s fee award, the Fifth Circuit
says a court must address the following “nuclei of concerns” in deciding whether such an award is appropriate
under the Act:
(1) the degree of the opposing parties’ culpability or
bad faith; (2) the ability of the opposing parties to
satisfy an award of attorneys’ fees; (3) whether an
award of attorneys’ fees against the opposing parties would deter other persons acting under similar
circumstances; (4) whether the parties requesting
attorneys’ fees sought to benefit all participants
and beneficiaries of an [Act-covered] plan or to resolve a significant legal question regarding [the
Act] itself; and (5) the relative merit of the parties’
positions.118
Lafleur v. Louisiana Health Serv. & Indem. Co., 563 F.3d 148, 158
(5th Cir. 2009) (quoting Gagliano v. Reliance Standard Life Ins. Co.,
547 F.3d 230, 240 (4th Cir. 2008)).

115

See Mark D. DeBofsky, A Critical Appraisal of the Current State
of ERISA Civil Procedure—an Examination of How Courts Treat
“Civil Actions” Brought Under the Employee Retirement Income Security Act, 18 EMP. RTS. & EMP. POL’Y J. 203, 235 (2014).

116

117

Wallace, No. CV 16-10625, 2017 WL 4987675, at *7.

Schexnayder, 600 F.3d at 471 (internal citations and quotation
marks omitted).

118

58a
Together, these factors weigh in favor of awarding
Nichols a reasonable attorney’s fee. Reliance has a severe
degree of culpability and the financial ability to satisfy an
attorney’s fee award. Such an award would have some deterrent effect on Reliance and other insurers. While Nichols’ suit was not brought to benefit other employees, her
position has far greater merit than Reliance’s. Therefore,
within 14 days, Nichols shall file a properly supported
motion for attorney’s fees.119 However, the Court does not
expect this matter to devolve into satellite litigation over
fees.120 Nichols has suffered long enough because of the
wrongful denial of her benefits.
Many courts have, after recounting Reliance’s abuses,
ordered the insurer to pay benefits and attorney’s fees.
Apparently these costs have not caused Reliance to
change course, as it has spent decades ignoring them with
impunity—perhaps treating them as the price of doing
business. In future cases, courts may be asked to order
further relief to curb Reliance’s perceived abuses. That
relief can be quite broad.121
Reliance has also moved to dismiss Nichols’ alternative claim for breach of fiduciary duty. That claim “sought
See George, 776 F.3d at 356 (“The court may also consider whether
[a claimant] is entitled to other relief, including prejudgment interest.”)

119

See Depriest v. Walnut Grove Corr. Auth., 3:10-CV-663-CWRFKB, 2018 WL 1958285, at *3 (S.D. Miss. Apr. 25, 2018) (“The Supreme Court encourages parties to settle the amount of a fee, and
warns that the question of reasonable fees should not result in a second major litigation.”) (quotation marks omitted).
120

121
See CIGNA Corp. v. Amara, 563 U.S. 421, 438-45 (2011); see also
Aetna Health Inc. v. Davila, 542 U.S. 200, 223 (2004) (Ginsberg, J.,
concurring).

59a
no different relief . . . than that available under [her] claim
for benefits.”122 Nichols’ claim for breach of fiduciary duty
is indistinguishable from her claim for benefits, and
therefore must be dismissed.123
SO ORDERED, this the 29th day of June, 2018.
s/ CARLTON W. REEVES
United States District Judge

Galutza v. Hartford Life & Acc. Ins. Co., No. 05-CV-58-GKF-PJC,
2008 WL 2433837, at *3 (N.D. Okla. June 12, 2008) (discussing Tolson
v. Avondale Indus., Inc., 141 F.3d 604 (5th Cir. 1998)).

122

Tolson, 141 F.3d at 610-11; see also Hollingshead v. Aetna Health
Inc., 589 Fed.Appx. 732, 736-37 (5th Cir. 2014).

123

